<html>
<title> - DEPARTMENT OF HOMELAND SECURITY LAW ENFORCEMENT OPERATIONS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
       DEPARTMENT OF HOMELAND SECURITY LAW ENFORCEMENT OPERATIONS

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                         AND HOMELAND SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 11, 2008

                               __________

                           Serial No. 110-135

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov


                     U.S. GOVERNMENT PRINTING OFFICE
41-189 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. ``BOBBY'' SCOTT, Virginia  HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
MAXINE WATERS, California            DANIEL E. LUNGREN, California
WILLIAM D. DELAHUNT, Massachusetts   CHRIS CANNON, Utah
ROBERT WEXLER, Florida               RIC KELLER, Florida
LINDA T. SANCHEZ, California         DARRELL ISSA, California
STEVE COHEN, Tennessee               MIKE PENCE, Indiana
HANK JOHNSON, Georgia                J. RANDY FORBES, Virginia
BETTY SUTTON, Ohio                   STEVE KING, Iowa
LUIS V. GUTIERREZ, Illinois          TOM FEENEY, Florida
BRAD SHERMAN, California             TRENT FRANKS, Arizona
TAMMY BALDWIN, Wisconsin             LOUIE GOHMERT, Texas
ANTHONY D. WEINER, New York          JIM JORDAN, Ohio
ADAM B. SCHIFF, California
ARTUR DAVIS, Alabama
DEBBIE WASSERMAN SCHULTZ, Florida
KEITH ELLISON, Minnesota

            Perry Apelbaum, Staff Director and Chief Counsel
      Sean McLaughlin, Minority Chief of Staff and General Counsel
                                 ------                                

        Subcommittee on Crime, Terrorism, and Homeland Security

             ROBERT C. ``BOBBY'' SCOTT, Virginia, Chairman

MAXINE WATERS, California            LOUIE GOHMERT, Texas
WILLIAM D. DELAHUNT, Massachusetts   J. RANDY FORBES, Virginia
JERROLD NADLER, New York             F. JAMES SENSENBRENNER, Jr., 
HANK JOHNSON, Georgia                Wisconsin
ANTHONY D. WEINER, New York          HOWARD COBLE, North Carolina
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
ARTUR DAVIS, Alabama                 DANIEL E. LUNGREN, California
TAMMY BALDWIN, Wisconsin
BETTY SUTTON, Ohio

                      Bobby Vassar, Chief Counsel

                    Caroline Lynch, Minority Counsel


                            C O N T E N T S

                              ----------                              

                             MARCH 11, 2008

                                                                   Page

                           OPENING STATEMENT

The Honorable Robert C. ``Bobby'' Scott, a Representative in 
  Congress from the State of Virginia, and Chairman, Subcommittee 
  on Crime, Terrorism, and Homeland Security.....................     1
The Honorable Louie Gohmert, a Representative in Congress from 
  the State of Texas, and Ranking Member, Subcommittee on Crime, 
  Terrorism, and Homeland Security...............................     3

                               WITNESSES

Mr. Dana A. Brown, Director, Federal Air Marshall Service, 
  Assistant Administrator, Transportation Security 
  Administration, Department of Homeland Security, Washington, DC
  Oral Testimony.................................................     5
  Joint Prepared Statement.......................................    13
Mr. Jeffrey D. Self, Chief, Southwest Border Division, Office of 
  Border Patrol, Department of Homeland Security, Washington, DC
  Oral Testimony.................................................     6
  Joint Prepared Statement.......................................    13
Mr. Raymond R. Parmer, Deputy Director for Investigations, U.S. 
  Immigration and Customs Enforcement, Department of Homeland 
  Security, Washington, DC
  Oral Testimony.................................................     8
  Joint Prepared Statement.......................................    13
Mr. Michael Stenger, Assistant Director, Office of 
  Investigations, United States Secret Service, Department of 
  Homeland Security, Washington, DC
  Oral Testimony.................................................    10
  Joint Prepared Statement.......................................    13
Rear Admiral Wayne Justice, Assistant Commandant for Capability 
  and Director of Response Policy, U.S. Coast Guard, Department 
  of Homeland Security, Washington, DC
  Oral Testimony.................................................    11
  Joint Prepared Statement.......................................    13

                                APPENDIX

Material Submitted for the Hearing Record........................    39


       DEPARTMENT OF HOMELAND SECURITY LAW ENFORCEMENT OPERATIONS

                              ----------                              


                        TUESDAY, MARCH 11, 2008

              House of Representatives,    
              Subcommittee on Crime, Terrorism,    
                              and Homeland Security
                                Committee on the Judiciary,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 10:11 a.m., in 
room 2237, Rayburn House Office Building, the Honorable Robert 
C. (Bobby) Scott (Chairman of the Subcommittee) presiding.
    Present: Representatives Scott, Delahunt, Nadler, Jackson 
Lee, Gohmert, Sensenbrenner, Coble, and Chabot.
    Staff present: Bobby Vassar, Subcommittee Chief Counsel; 
Mario Dispenza (Fellow), ATF Detailee; Ameer Gopalani, Majority 
Counsel; Veronica Eligan, Majority Professional Staff Member; 
Kimani Little, Minority Counsel; and Kelsey Whitlock, Minority 
Staff Assistant.
    Mr. Scott. The Committee will come to order. I am pleased 
to welcome you today for the hearing before the Subcommittee on 
Crime, Terrorism, and Homeland Security on the Department of 
Homeland Security law enforcement operations.
    In 2002 the Department of Homeland Security was created in 
the wake of the terrorist attacks of 9/11/2001. The concept was 
to transform and realign multiple agencies of various functions 
into one department, to streamline intelligence and law 
enforcement, and better protect the United States from 
terrorist attacks.
    One of the shortcomings that we had was we were trying to 
get all the agencies together, because the FBI wasn't talking 
to the Department of Defense who wasn't talking to the CIA. And 
when the dust settled, we looked up and we had a new department 
and none of those agencies were in the Department of Homeland 
Security. So instead of three people not talking to each 
other----
    Anyway, the concept is the concept, but as part of the 
creation of the department, the following law enforcement 
agencies were either transferred to DHS or created by 
consolidation: the Transportation Security Administration, 
Customs and Border Protection, Immigration and Customs 
Enforcement, Secret Service, and the Coast Guard. These 
agencies, their functions, their accomplishments, and their 
challenges are the subject of this hearing.
    The TSA's main law enforcement functions are the Federal 
Air Marshals and the National Explosives Detection Canine Team 
programs. Air marshals are deployed on flights around the world 
and the United States to ensure the security of the plane and 
the passengers during flight. During this hearing, the 
Subcommittee will follow up on issues from the 2005 hearing and 
inquire about the effectiveness of air travel security.
    The TSA's National Explosives Detection Canine Team program 
prepares dogs and analysts to locate and identify dangerous 
materials that may present a threat to transportation systems. 
Explosives detections canines can be a valuable tool in foiling 
terrorists' plots, which is why a number of agencies outside 
the DHS conduct explosive detections services with canines.
    However, the training standards and methods differ among 
agencies, which has caused controversy among the experts in the 
field. The Subcommittee will inquire about whether multiple 
efforts among agencies using different methods and standards 
are the most effective use of Federal resources, or whether a 
national standard should be established by one agency.
    The United States Customs and Border Protection is 
responsible for protecting our Nation's borders from terrorism, 
human and drug smuggling, and illegal immigration, while 
simultaneously facilitating the flow of legitimate travel and 
trade. This agency must work a fine line of balancing the 
urgency of securing the borders while being the least intrusive 
on commerce and the liberty rights of Americans as possible.
    Some privacy and civil rights groups have voiced concerns 
about the techniques that might violate the first amendment. 
They have demanded that CBP disclose its policies when 
questioning travelers on first amendment protected activities, 
photocopying individuals' personal papers, searching laptop 
computers and other electronic devices, and we may discuss 
these policies today.
    The Committee will also inquire about the Operation 
Streamline initiative, which targets for prosecution those who 
enter the United States through high-traffic areas near the 
United States' southwest border in violation of criminal law. 
Concerns have been raised about Operation Streamline being too 
aggressive, and allegations that have been raised by some U.S. 
citizens about being improperly subject to deportation.
    The Immigration and Customs Enforcement, or ICE, is the 
largest investigative branch of DHS and focuses on targeting 
unauthorized aliens, people, money, and materials that support 
terrorism and other criminal activities in meeting its mission 
objectives. Today the Subcommittee will explore issues related 
to ICE policies and practices related to investigation and 
detention and removal of unauthorized aliens.
    In 2007, the Government Accountability Office report about 
ICE practices identified problem areas, recommended that ICE 
update its policies for alien apprehension and removal, 
streamline and improve its dissemination of legal updates, and 
develop a system of determining comprehensive best practices to 
uniform supervisory reviews of officer discretion. The 
Subcommittee will inquire about how ICE is responding to the 
GAO's recommendations.
    In addition to its protection responsibilities, the United 
States Secret Service also investigates financial crime 
violations. The Subcommittee will want to know about the 
investigation of financial crimes, which pose a tremendous 
threat to our national security and the personal finances of 
all Americans.
    According to the Privacy Rights Clearinghouse, more than 
150 million records containing sensitive information--personal 
information--have been involved in data security breaches since 
2005. Since November 2005, there have been at least 436 data 
security breaches in the United States affecting millions of 
American consumers. The Subcommittee will inquire as to how the 
Secret Service is responding to combat these threats.
    The United States Coast Guard law enforcement mission is 
maritime security, which is to protect America's maritime 
borders from all intrusions hosting the flow of illegal drugs, 
aliens, and contraband into the United States through maritime 
routes, preventing illegal fishing, and suppressing violations 
of Federal law in maritime areas. The Subcommittee will inquire 
the Coast Guard's success in these areas, and will also explore 
the Coast Guard's plan for updating its technology. For 
example, the Coast Guard is developing an important homeland 
security program called the Automatic Identification System, 
which will enable the Coast Guard to employ a nationwide system 
for identifying, tracking, and communicating with vessels in 
U.S. harbors.
    With that said, it is my pleasure to recognize the Ranking 
Member of the Subcommittee, the gentleman from Texas--from the 
1st Congressional District of Texas--former judge Louie 
Gohmert.
    Mr. Gohmert. Thank you, Chairman Scott. I couldn't tell, 
are these microphones working?
    Mr. Scott. Yes, I believe it is.
    Mr. Gohmert. You would be better off, probably, if mine 
wasn't. But I appreciate Chairman Scott's comments.
    I wasn't in Congress when Homeland Security was created; as 
I recall it was a fairly bipartisan effort, because the 9/11 
Commission recommended it. But in my layman state of ignorance, 
I sure didn't think it was a good idea to add another level of 
bureaucracy. Gee, if they are not communicating, let us add 
another level of bureaucracy that everybody will have to 
communicate through. And it seems that when I had that opinion 
in my state of ignorance, that maybe I wasn't as ignorant as 
one might have thought.
    But I want to thank you for scheduling this hearing. This 
is the first hearing the Subcommittee will have on law 
enforcement agencies in the Department of Homeland Security. 
This represents an opportunity to learn more about the vast law 
enforcement mission given to DHS.
    Last week our full Committee held an oversight hearing on 
the entire department. At that hearing, Secretary Chertoff 
focused his comments on answering questions on immigration 
issues. Today we look forward to hearing from the 
representatives of the five law enforcement agencies.
    We want to hear about your missions, your capabilities, and 
what challenges you expect to face in the near future. That 
also will tell us what we need to do to help you.
    The Department of Homeland Security has wide Federal law 
enforcement authority to achieve its mission to secure the 
homeland. That law enforcement authority is divided among five 
agencies--of course, you know this well: the U.S. Coast Guard, 
the U.S. Secret Service, the Federal Air Marshal Service, U.S. 
Customs and Border Protection, and U.S. Immigration and Customs 
Enforcement.
    The United States Coast Guard patrols international waters 
and America's coasts and waterways. With over 43,000 employees, 
Coast Guard Service is the lead Federal agency to combat 
maritime illegal immigration and for maritime drug 
interdiction. Each year, Coast Guard drug interdiction accounts 
for nearly 52 percent of all U.S. government seizures of 
cocaine.
    U.S. Secret Service is best known for its mission to 
protect the President and other national and foreign leaders; 
however, the Service combats the counterfeiting of U.S. 
currency, and guards against cyber-attacks on our financial and 
telecommunications infrastructure. In 2007, the Service seized 
an estimated $147 million in counterfeit dollars.
    Federal Air Marshal Service is the primary law enforcement 
agency within the Transportation Security Administration. Each 
year the Air Marshals deploy on thousands of flights, 
domestically and internationally, to protect passengers and 
crew from criminal and terrorist attacks in the air.
    United States Custom and Border Protection is responsible 
for securing the U.S. borders and ports, works to prevent 
terrorists and terrorist weapons from entering the U.S., and 
combats drug trafficking and human smuggling along the border. 
In 2007, CBP seized more than 87,000 pounds of cocaine, and 
more than 307,000 pounds of marijuana in its law enforcement 
operations.
    U.S. Immigration and Customs Enforcement is the largest 
investigative arm of DHS. With the second-largest cadre of 
special agents in the U.S., ICE targets the people, money, and 
materials that support terrorists and criminals. Since 2003, 
ICE has seized more than $600 million in cash and monetary 
instruments, and more than $850 million worth of real property, 
vessels, aircrafts, artwork, vehicles, and jewels.
    DHS has had an impact in law enforcement, but there is 
still more to do, of course. I look forward to working with 
Chairman Scott on ensuring effective oversight of DHS law 
enforcement agencies--and that is why I am pleased you called 
this hearing--and look forward to this hearing and learning 
more about the problems you face, the challenges you have 
ahead, and how we can work together to solve them.
    Thank you, Mr. Chairman.
    Mr. Scott. Thank you.
    I will ask other Members to have their statements in the 
record. If there is no objection, we will continue by 
introducing our panelists.
    Our first witness will be Mr. Dana Brown, assistant 
administrator for law enforcement for the TSA, and director of 
the Air Marshal Service. He served with the U.S. Secret Service 
for 25 years, and is retired as assistant director for the 
Office of Administration before bringing his expertise and 
experience to the Federal Air Marshal Service in 2003. He has a 
bachelor's degree from the College of William and Mary in 
Virginia.
    Our next witness will be Mr. Jeffrey Self, Southwest Border 
Division chief, Office of Border Patrol. He is a 19-year 
veteran of the Border Patrol, having served in numerous patrol 
areas in leadership positions. As Southwest Border Division 
chief, he is responsible for the activities of nine Southwest 
Border sectors and over 11,000 Border Patrol agents.
    Our next witness will be Raymond Parmer, deputy director of 
the Office of Investigations to the U.S. Immigration and 
Customs Enforcement. As deputy director, Mr. Parmer oversees 
the largest investigative arm of the Department of Homeland 
Security, is responsible for the policy planning, management, 
and operations conducted under the five major investigative 
program divisions within the Office of Investigations. He has a 
Bachelor of Arts degree in criminal justice administration from 
the University of South Alabama, and a Master of Science degree 
in criminal justice management from the University of Southern 
Mississippi.
    Our next witness is Michael Stenger, the assistant 
director, Office of Investigations, United States Secret 
Service. He is a 31-year veteran of the Secret Service, and has 
served in numerous protective, investigative, and staff 
assignments. For his current assignment, he serves as the 
senior official overseeing the agency's investigations. In this 
capacity, he develops and implements policies as it pertains to 
the cyber and fraud related crimes that the agency 
investigates. He has a Bachelor of Arts degree from Fairleigh 
Dickinson University in New Jersey.
    Our final witness is Rear Admiral Wayne Justice, who serves 
currently as the assistant commandant for Capability, and as 
the director of Response Policy for the United States Coast 
Guard. As the assistant commandant for Capability, he is 
responsible for the allocation, distribution, management, and 
recapitalization of all Coast Guard operation forces. As the 
director of Response Policy, he is responsible for the 
development of doctrine and policy guidance for all Coast Guard 
forces to accomplish operational maritime missions in the areas 
of search and rescue, law enforcement, defense operations, and 
incident management. He is a 30-year veteran of the Coast 
Guard, and has a Bachelor of Science in management from the 
Coast Guard Academy, 1977, a master's in human resource 
management with honors from Nova University, and a master's in 
strategic studies from the Naval War College--College of Naval 
Warfare--in 1996.
    Each of our witnesses' written statements will be entered 
in the record in its entirety, and I ask each witness to 
summarize his testimony in 5 minutes or less. And to help you 
stay within that time, there is a lighted device in front of 
us, which will switch from green to yellow when you have 1 
minute left, and we would ask you to conclude your testimony--
finish your thought--but conclude your testimony when 5 minutes 
have expired.
    We will begin with Mr. Brown.

  TESTIMONY OF DANA A. BROWN, DIRECTOR, FEDERAL AIR MARSHALL 
   SERVICE, ASSISTANT ADMINISTRATOR, TRANSPORTATION SECURITY 
ADMINISTRATION, DEPARTMENT OF HOMELAND SECURITY, WASHINGTON, DC

    Mr. Brown. Good morning, Chairman Scott, Representative 
Gohmert, distinguished Members of the Committee. I am 
privileged to appear before you today to discuss the authority 
of the Federal Air Marshal Service and the Transportation 
Security Administration of the Department of Homeland Security.
    September the 11, 2001, forever transformed our Nation. In 
one moment we came face to face with a known enemy on American 
soil, on a chance condition threatening to our way of life. 
However, on that day something far greater than fear, something 
much stronger than despair took root: an unshakeable faith in 
our fellow citizens and our ideals in our Nation, and an 
unwavering determination to protect and preserve what we stand 
for as a country on virtue of the destruction, to guide our 
efforts in the fight against terrorism and the quest to 
preserve liberty; and I have my place of work at the Federal 
Air Marshal Service due to that set of beliefs.
    Over the past 4 years, Air Marshal capability has expanded 
and contracted in reaction to hijack activity. Until 9/11, the 
Air Marshals consisted of less than 50 personnel who operated 
under the direction of the Federal Aviation Administration and 
flew mainly international missions. In the aftermath of 9/11, 
the Department of Homeland Security was envisioned, formed, and 
is now in operation--Federal Air Marshal Service has been a 
challenging and rewarding undertaking.
    While we have come a long way since then, we still have 
some distance to go. I was fortunate to be named as the 
director of the Federal Air Marshal Service a little over 2 
years ago. Since that time, one of my goals has been to build 
on the accomplishments of the former director who did an 
outstanding job in creating a full-fledged law enforcement 
organization consisting of thousands of personnel in less than 
1 year--is complete and the old condition stabilizes, my goal 
to building success--blueprint for the future.
    Thank you, sir.
    Mr. Scott. Thank you.
    Mr. Self?

TESTIMONY OF JEFFREY D. SELF, CHIEF, SOUTHWEST BORDER DIVISION, 
   OFFICE OF BORDER PATROL, DEPARTMENT OF HOMELAND SECURITY, 
                         WASHINGTON, DC

    Chief Self. Chairman Scott, Ranking Member Gohmert, and 
distinguished Subcommittee Members, it is an honor to have the 
opportunity to appear before you today. My testimony this 
morning focuses on law enforcement operations of CBP as well as 
partnership with other Federal agencies to guard our Nation's 
borders against terrorists and their instruments of terror.
    Established in 2003, CBP is a consolidated agency brought 
together to protect America's front line from terrorism while 
facilitating legitimate trade and travel along our Nation's 
border. The agency unites in inspectional work forces and broad 
border authorities of the U.S. customs, Key West immigration, 
animal and plant health and inspections services and the entire 
U.S. Border Patrol.
    The agency manages 326 ports of entry and 144 border patrol 
stations within 20 sectors to secure almost 6,000 miles of 
border with Canada and Mexico, and 95,000 miles of shoreline. 
On a typical day in fiscal year 2007, the law enforcement 
jurisdiction of the agency executed 70 arrests of criminals at 
ports of entry, 2,400 illegal aliens between the ports, 
intercepted 84 fraudulent documents and seized over 7,300 
pounds of narcotics at and between ports of entry.
    CBP has authority to enforce Federal criminal law, codified 
in title 18 and elsewhere in the U.S. Code. CBP works in 
coordination with U.S. Immigration and Customs Enforcement, 
U.S. Coast Guard, U.S. Drug Enforcement Administration, Federal 
Bureau of Investigation, Bureau of Alcohol, Tobacco, and 
Firearms, and other Federal agencies to enforce Federal 
criminal law at the border.
    CBP officers and border patrol agents may arrest without a 
warrant for any Federal offense, including violations of title 
18 and title 19, if the offense is committed in the officer or 
agent's presence. The officer and agent may also arrest without 
a warrant for any Federal felony that occurs outside the 
officer or agent's presence if the officer or agent has 
reasonable grounds to believe the person committed the felony.
    Common immigration-specific violations of title 18 at the 
border include false claim to U.S. citizenship, fraud involving 
identity documents reproduction and fraud involving citizenship 
documents forgery or false use of a passport and false 
statements to a Federal officer. Other common violations of 
title 18 that lead to arrest by CBP are: for an assault on a 
Federal officer, and--possession of a firearm.
    CBP has primary responsibility for enforcing the 
immigration laws of title 8 and the custom laws of title 19 at 
the border. The Immigration and Nationality Act within title 8 
has its own criminal provisions. In addition, violations of 
title 8 may also form the basis of a title 18 prosecution. 
Common prosecution based on violations of the INA discovered by 
CBP at the border are: alien smuggling, illegal entry into the 
U.S., and illegal reentry into the U.S.
    Many prosecutions result from the identification of 
arrested subjects through the IAPS system. The IAPS system 
resulted in over 144,000 hits this past fiscal year for crimes 
ranging from homicide, sexual assault, robbery, dangerous 
drugs, and other misdemeanor crimes.
    In order to ensure these laws, CBP--in order to enforce 
these laws, CBP utilizes partnership with other Federal 
agencies. A key example of these partnerships are Integrated 
Border Enforcement Teams and Operation Uniforce.
    From January 13, 2008 to January 26, 2008 border patrol 
agents from the New Orleans sector conducted Operation Uniforce 
to interdict alien and narcotic smugglers. These multi-agency 
operations were conducted utilizing traffic observation units 
on Interstate 20, operating between the Mississippi River and 
the city of Jackson, Mississippi.
    Forty border patrol agents and two canine handlers from the 
New Orleans Sector conducted operations with the Office of 
Field Operations Special Response Team members, agents from the 
ICE Detention and Removal Office, CBP Air and Marine, the 
Mississippi Highway Patrol, the Rankin, Madison, and Hines 
County Sheriff's Departments, along with the Pearl and Clinton 
Police Department.
    The intelligence data that was gathered during Operation 
Uniforce provided valuable insight into identifying the 
criminal organizations that use the I-20 corridor for human and 
narcotic trafficking. Through law enforcement operations and 
partnerships with other local, State, and Federal foreign and 
international agencies, CBP front line officers and agents will 
continue to protect America from the terrorist threat while 
also accomplishing our traditional missions in immigration, 
customs, and agriculture.
    I would like to thank the Chairman and Members of the 
Subcommittee for the opportunity to present this testimony 
today and for your continued support of DHS and CBP. We will be 
happy to respond to any questions that you may have.
    Mr. Scott. Thank you, Mr. Self.
    Mr. Parmer?

      TESTIMONY OF RAYMOND R. PARMER, DEPUTY DIRECTOR FOR 
   INVESTIGATIONS, U.S. IMMIGRATION AND CUSTOMS ENFORCEMENT, 
        DEPARTMENT OF HOMELAND SECURITY, WASHINGTON, DC

    Mr. Parmer. Good morning, Chairman Scott, Ranking Member 
Gohmert, and distinguished Members of the Committee. It is my 
privilege to appear before you today to discuss U.S. 
Immigration and Customs Enforcement's criminal law enforcement 
responsibilities.
    ICE has broad responsibilities and we are leveraging them 
by aligning our authorities with the risks that face the Nation 
today. In this regard, ICE enacted a multi-year strategy of 
improving immigration enforcement through efficient management, 
focused enforcement efforts to target the most dangerous 
illegal aliens, and worksite enforcement initiatives that 
target employers who defy immigration law, thus reducing the 
pull of jobs magnets that draw illegal workers across the 
border in search of employment.
    At the same time, ICE stepped up the battle against 
financial crime and the exploitation of legitimate financial 
networks by criminal organizations using methods to earn, move, 
and store illicit funding needed to support their criminal 
enterprises. Our risk-based approach extends from interior 
immigration enforcement, in which we are prioritizing criminal 
aliens and fugitives, to the application of our customs fraud 
authorities to prevent the importation of tainted commodities 
and counterfeit pharmaceuticals.
    This approach shapes our methods to target drug and other 
contraband smuggling with financial authorities and 
international partnerships, and it means we continue to thwart 
the illegal export of weapons and sensitive technology.
    To target some of the most dangerous criminals and 
sophisticated criminal organizations, ICE has developed robust 
initiatives to enforce our immigration laws in the interior, 
including programs that specifically target child predators and 
gang members, ensure compliance on the part of those who visit 
the U.S. for school or simply to tour, target alien absconders, 
who are fugitives who have failed to comply with a lawful 
judicial order to leave the country, and dismantle the 
infrastructure that supports illicit immigration such as 
illegal employment and the fraudulent document trade.
    We are also working particularly close with State and local 
law enforcement partners. Recognizing that there are more than 
775,000 State and local law enforcement officers in the 
country, ICE is leveraging our authorities to develop 
partnerships under the ICE ACCESS program, including cross-
designation programs such as 287(g) and customs title 9 
authority.
    While the immigration authorities--I am sorry, while the 
Immigration Enforcement initiatives I have described most often 
relate to people wanting to come into our country, another key 
risk we guard against is efforts to take sensitive technology 
and arms out. In fiscal year 2007, arms and strategic 
technology investigations resulted in 188 arrests, 178 
indictments, and 127 convictions for export-related 
violations--more than any other U.S. Federal law enforcement 
agency.
    Other dangers are less obvious. Traditional customs fraud, 
in many cases, constitutes serious and unrecognized public 
health risks. Take, for example, Operation Guardian, an ongoing 
ICE-led operation with CBP, the FDA, and Consumer Product 
Safety Commission, to investigate imports of substandard, 
tainted, and dangerous products from China.
    The operation to date has resulted in the seizure of more 
than 59,000 tubes of diethylene glycol and bacteria-laden 
toothpaste bound for U.S. markets and the initiation of joint 
U.S.-People's Republic of China investigations. Diethylene 
glycol, by the way, is a toxic chemical used to make 
antifreeze. And this is one of many similar cases involving 
tainted goods which would otherwise be on store shelves just 
waiting for purchase by American families.
    As I mentioned, the risk-based approach also shapes our 
methods to target drug and other contraband smuggling. With 
only 25 percent of our special agents authorized to conduct 
drug smuggling investigations, ICE conducted investigations 
resulting in the seizure of 232,000 pounds of cocaine, 1.3 
million pounds of marijuana, as well as 5,900 narcotics-related 
convictions.
    Using our financial tools and international partnerships, 
we are pushing out beyond our borders. Our Trade Transparency 
Units represent unique relationships with foreign nations that 
allow us to share import and export data to identify trade 
anomalies that suggest money laundering. Our agents, thanks to 
these partnerships, are effectively identifying schemes 
designed to hide the illicit proceeds from the drug trade and 
sale of dangerous consumer goods, foreign tax fraud, and other 
transnational criminal activity.
    This kind of approach--focusing on risk and going after the 
money--yields real results. Since 2003, ICE has seized more 
than $600 million in cash and monetary instruments, and more 
than $580 million worth of real property, vessels, aircraft, 
artwork, vehicles, and jewels.
    ICE's Federal Protective Service, responsible for policing, 
securing, and ensuring a safe environment in which Federal 
agencies can conduct their business, seized more than 760,000 
prohibited items last year. They investigated hundreds of 
threats posed against the more than 8,800 Federal facilities 
and millions of visitors to Federal buildings nationwide.
    Our work can be dangerous and difficult, but we tackle our 
responsibilities each day with pride and professionalism. I 
appreciate the opportunity to appear before you today on behalf 
of ICE, and look forward to answering your questions.
    Mr. Scott. Thank you very much.
    Mr. Stenger?

  TESTIMONY OF MICHAEL STENGER, ASSISTANT DIRECTOR, OFFICE OF 
  INVESTIGATIONS, UNITED STATES SECRET SERVICE, DEPARTMENT OF 
               HOMELAND SECURITY, WASHINGTON, DC

    Mr. Stenger. Yes. Good morning, Chairman Scott, Ranking 
Member Gohmert, and distinguished Members of the Subcommittee. 
I would like to thank you for the opportunity to testify today 
on the investigative responsibilities of the Secret Service. 
While the Service is perhaps best known for our protective 
responsibilities, we have a dual mission.
    The Secret Service was established in 1865 to suppress the 
rampant counterfeiting of U.S. currency. Throughout our 142-
year history, the Service has evolved and adapted to thwart 
attempts by both individuals and criminal organizations to 
exploit the Nation's financial infrastructure.
    Today we investigate criminal violations relating to the 
counterfeiting of obligations and securities of the United 
States; financial crimes such as access device fraud, financial 
institution fraud, identity theft, and computer-based attacks 
on the Nation's financial payment systems and critical 
infrastructure.
    To accomplish our mission, we have 139 domestic offices and 
21 foreign offices located in 16 countries. We work closely 
with our Federal, State, and local law enforcement partners as 
well as other U.S. government agencies and foreign counterparts 
to maximize our efforts.
    The Secret Service is proud of its role and success in 
protecting U.S. currency. Last year, more than 2,200 suspects 
were arrested for counterfeiting offenses, and over $147 
million in counterfeit currency was seized. The agency 
continues to adapt to the trends in counterfeiting, which have 
been influenced in recent years by computer-based technologies.
    Widespread use of personal computers and advancements in 
digital printing technologies have provided more individuals 
the opportunity to manufacture counterfeit money. Approximately 
58 percent of the counterfeit currency passed domestically in 
2007 was produced using digital printing.
    In our role of safeguarding the Nation's critical financial 
infrastructure, we have a long history of protecting American 
consumers and the financial industry from fraud. With the 
passage of legislation in 1984, we were provided authority for 
the investigation of access device fraud and concurrent 
authority with other law enforcement agencies in identity theft 
crimes.
    In recent years, the combination of the information 
revolution and the effects of globalization have caused the 
investigative mission of the Secret Service to evolve. Through 
our work in the areas of financial and electronic crime, we 
have developed particular expertise in the investigation of 
financial crimes, cyber crimes and computer intrusions.
    In fiscal year 2007, agents arrested over 4,300 suspects 
for financial crimes, who were responsible for over $690 
million in actual fraud loss. The most recent trend is the use 
of computers and the Internet to launch cyber attacks targeting 
citizens and financial institutions. Cyber criminals have 
become adept at stealing victims' personal information through 
the use of phishing emails, account takeovers, malicious 
software, hacking attacks, and network intrusions resulting in 
data breaches.
    This stolen information is often sold in bulk quantities 
through illicit Internet Websites known as carding portals. We 
have established a national network of 29 financial crimes task 
forces and 24 electronic crimes task forces in cities 
throughout the United States. These task forces leverage the 
combined resources of law enforcement as well as technical 
experts from academia and the private industry.
    Further, the Secret Service will have a key role in the 
implementation of the Administration's cyber-security 
activities, as outlined in the recent presidential directive 
addressing cyber-security policy. As I have highlighted in my 
statement, the Secret Service has adapted to the constantly 
evolving criminal environment. We continue to aggressively 
investigate all offenses within our purview, and are committed 
to our mission of protecting the integrity of U.S. currency and 
safeguarding the Nation's critical financial infrastructure and 
financial payment systems.
    This concludes my prepared statement. Thank you again for 
the opportunity to testify on behalf of the Secret Service. I 
am pleased to answer any questions.
    Mr. Scott. Thank you very much.
    Admiral Justice?

 TESTIMONY OF REAR ADMIRAL WAYNE JUSTICE, ASSISTANT COMMANDANT 
  FOR CAPABILITY AND DIRECTOR OF RESPONSE POLICY, U.S. COAST 
     GUARD, DEPARTMENT OF HOMELAND SECURITY, WASHINGTON, DC

    Admiral Justice. Good morning, Chairman Scott, Ranking 
Member Gohmert, and distinguished Members of the Subcommittee. 
It is a privilege for me to testify before you today about the 
maritime law enforcement mission of the United States Coast 
Guard. I feel passionately about this mission, having spent 
nearly 30 years deeply involved in it.
    While the written testimony covers the full spectrum of 
Coast Guard's global law enforcement activities, for my oral 
testimony today I would like to share with you some highlights 
of how drug and alien smugglers continuously adapt their 
technologies and tactics, and then ask your help in adapting 
our criminal law to better counter two of the most dangerous 
activities facing maritime law enforcement officers in our 
Nation: self-propelled semi-submersible smuggling vessels and 
maritime alien smuggling.
    The influx of illegal drugs remains one of America's 
greatest maritime security threats. One of the emerging and 
most significant threats we face in transit zones today are 
manned and unmanned self-propelled semi-submersible, SPSS, 
vessels that transport multi-ton loads of cocaine and other 
illicit cargo bound for the United States.
    SPSS vessels are watercraft of unorthodox construction, 
capable of putting much of their bulk under the surface of the 
water, making them difficult to detect. You can see images of 
recently interdicted SPSS vessels on the posters here, and we 
have provided the Committee staff compelling video from a case 
just 2 weeks ago that I urge you to watch.
    SPSSs typically carry up to five crew and four to six tons 
of illegal cargo at speeds up to eight knots. SPSS vessels 
encountered by the Coast Guard are stateless vessels built in 
the jungles of South America with no legitimate use. Their 
crews typically abandon and sink the vessels and contraband 
when detected by law enforcement in order to evade U.S. 
prosecution for drug trafficking.
    Although U.S. interdiction forces nearly always capture 
imagery of detected SPSS and the crews abandoning them before 
they sink, attempting to access and recover contraband before a 
SPSS scuttles is very dangerous and almost impossible. The SPSS 
vessel is an attempt to avoid both detection and consequences--
if territorial operation of and embarkation in stateless SPSS 
vessels was a criminal offense in title 18 of the United States 
Code, then U.S. interdiction forces and U.S. attorneys would 
have the necessary tools to combat the SPSS threat even in the 
absence of recovered drugs or other contraband. The Coast Guard 
has closely coordinated with the Department of Justice to draft 
an amendment to title 18 to address this concern.
    We have briefed Committee staff on this amendment, which is 
attached to my written statement, and urge Committee action on, 
and House passage of, the amendment as soon as possible. The 
Coast Guard projects the possibility of 85 SPSS events, 
carrying possibly 340 metric tons of cocaine, during fiscal 
year 2008. We need your help now to counter this dangerous 
emerging threat.
    As the lead Federal agency in maritime law enforcement, the 
Coast Guard is also responsible for enforcing immigration laws 
at sea. Thousands of people try to enter our country illegally 
every year using maritime routes in dangerously overloaded, 
unseaworthy, or otherwise unsafe vessels. This is why the Coast 
Guard migrant-interdiction operations are as much humanitarian 
efforts as they are law-enforcement missions.
    Although Coast Guard has interdicted migrants of various 
nationalities through the Western Hemisphere, the primary 
illegal immigration threat comes from Cuba, Haiti, and the 
Dominican Republic. In the Mona Pass between Puerto Rico and 
the Dominican Republic, deployment of mobile biometrics 
capability on 110-foot patrol boats and robust interagency 
support have contributed significantly to a reduction in the 
flow of illegal migration by nearly 50 percent.
    The referral of 120 cases of criminal aliens identified at 
sea through mobile biometrics, including 33 aggravated felons, 
77 aliens illegally attempting reentry after deportation, seems 
to have stemmed the flow in what was the single largest migrant 
smuggling vector before biometrics-based prosecutions. This 
project would not have been possible without the full 
partnership of US-VISIT, CBP, ICE, Border Patrol, plus the U.S. 
Attorney's Office in San Juan, Department of State, and the 
Dominican Navy.
    Like drug traffickers, migrant smugglers profit by adapting 
their tactics and acquired technical innovations--particularly 
high-speed multi-engine go-fast vessels. The enterprise brings 
thousands of undocumented aliens to the United States for the 
price of up to $10,000 a head. Despite a 35 percent increase in 
the number of cutter and resource hours targeted against 
migration in the Florida Straits, migration continues to 
increase in that vector. The effectiveness of any interdiction 
model is dependant on our ability to deliver consequences to 
smugglers through prosecution and other action.
    I would like to thank the House Judiciary Committee for 
hearing and acting on our request in 2007 for enhanced offenses 
involving maritime alien smuggling. The statutory amendment to 
18 U.S.C. 2237, developed by the Committee last fall and now 
appearing in title VI of our Auth Act, will be vital to Coast 
Guard mission accomplishment.
    That amendment would be strengthened further by making it 
unlawful to smuggle any person or contraband into the United 
States and permitting both civil and criminal forfeiture of 
property. We would also like the provision to ensure that any 
sentence under 2237 runs consecutively, not concurrently.
    With these additions, title VI, if enacted this year, would 
also assist us and U.S. attorneys to achieve these operational 
requirements. With your help, sirs, we can reduce the flow of 
illegal aliens and illicit goods into our country by ensuring 
that the risks and consequences far outweigh the possible 
benefits.
    Thank you for this opportunity to testify, and I am pleased 
to answer questions at this time.
    [The joint prepared statement of the United States 
Department of Homeland Security follows:]

                                <F-dash>

       Joint Prepared Statement of the United States Department 
                          of Homeland Security

    Good morning, Chairman Scott, Ranking Member Gohmert, and 
distinguished members of the subcommittee. We would like to thank you 
for the opportunity to testify today on the law enforcement and 
investigative responsibilities of the Department of Homeland Security 
(DHS)--specifically the responsibilities of the United States Secret 
Service, the Transportation Security Administration (TSA), the United 
States Customs and Border Protection (CBP), the United States 
Immigration and Customs Enforcement (ICE), and the United States Coast 
Guard. As you will see, DHS has utilized its authorities to protect our 
nation from dangerous people, protect our critical infrastructure, and 
protect our nation from dangerous goods.

                          U.S. SECRET SERVICE

    While the Secret Service is perhaps best known for protecting the 
president, vice president, and other high-ranking public officials, the 
Secret Service originated as an investigative law enforcement agency. 
The Secret Service was established in 1865 to suppress the rampant 
counterfeiting of U.S. currency. Since then, the Secret Service's 
investigative mission has evolved and the agency has adapted to thwart 
attempts by both individuals and criminal organizations to exploit the 
nation's financial infrastructure through varied financial crimes. 
Currently, the Secret Service investigates criminal violations relating 
to the counterfeiting of obligations and securities of the United 
States (18 U.S.C. Sec. Sec. 470-474); financial crimes such as access 
device fraud (18 U.S.C. Sec. 1029), financial institution fraud (18 
U.S.C. Sec. 1344), and identity theft (18 U.S.C. Sec. 1028); cyber 
crime such as network intrusions, malware, and online organized crime 
(18 U.S.C. Sec. 1030; and computer-based attacks on the nation's 
financial, banking, and telecommunications infrastructure (18 U.S.C. 
Sec. 1030).
    To accomplish its investigative mission, the Secret Service 
operates 139 domestic offices (including domicile offices) and 21 
foreign offices in 16 countries. The agency works closely with federal, 
state, and local law enforcement entities, as well as other U.S. 
government agencies and foreign police counterparts to maximize its 
efforts.

Counterfeiting:
    The Secret Service is proud of its role and success in protecting 
the worldwide integrity of U.S. currency. Last year, the Secret Service 
arrested more than 2,200 suspects for counterfeiting offenses and 
helped to remove over $147 million in counterfeit U.S. currency from 
circulation. The agency continues to adapt to the trends in 
counterfeiting, which have been influenced in recent years by computer-
based technologies. The widespread use of personal computers and 
advancements in digital printing technology has provided more 
individuals the opportunity to manufacture a passable counterfeit note 
with relative ease. Approximately 58% of the counterfeit currency 
passed domestically in FY 2007 was produced using digital printing 
means, compared with less than 1% in FY 1995.

Financial Fraud and Electronic Crimes:
    In our role of safeguarding the nation's critical financial 
infrastructure, the Secret Service has a long history of protecting 
American consumers and the financial industry from fraud. With the 
passage of legislation in 1984, the Secret Service was provided 
authority for the investigation of access device fraud, including 
credit card and debit card fraud, and parallel authority with other law 
enforcement agencies in identity theft cases. In recent years, the 
combination of the information revolution and the effects of 
globalization have caused the investigative mission of the Secret 
Service to evolve.
    Through our work in the areas of financial and electronic crime, 
the Secret Service has developed particular expertise in the 
investigation of identity theft, false identification fraud, credit 
card fraud, debit card fraud, check fraud, bank fraud, online back 
account and investment portfolio takeovers, cyber crime, malware, and 
computer network intrusions. In Fiscal Year 2007, Secret Service agents 
arrested over 4,300 suspects for financial crimes violations. These 
suspects were responsible for approximately $690 million in actual 
fraud loss to individuals and financial institutions.
    In fact, the Secret Service has observed a marked increase in the 
quantity and complexity of financial crimes in recent years--
particularly offenses involving identity theft and access device fraud. 
The recent trend observed by law enforcement is the use of computers 
and the Internet to launch cyber attacks targeting citizens and 
financial institutions. Cyber criminals have become adept at stealing 
victims' personal information through the use of phishing emails, 
account takeovers, malicious software, hacking attacks, and network 
intrusions resulting in data breaches.
    This stolen information is often sold in bulk quantities through 
illicit Internet portals. These portals, or ``carding websites,'' can 
be likened to online bazaars where the criminal element converges to 
conduct their business. The websites vary in size, from just a few 
dozen members to more popular sites which boast memberships of 
approximately 8,000 users. These websites are often composed of 
separate forums which are moderated by notorious members of the cyber 
crime community. Within these websites, cyber criminals can buy, sell, 
and trade malicious software; spamming services; hacking services; 
credit, debit, and ATM card data; and personal identification and bank 
account information. The Secret Service is currently conducting 
approximately 15 online undercover investigations targeting domestic 
and international groups that are using malicious web-based forums to 
trade stolen information.
    The Internet has enabled criminal groups involved in financial 
crimes to routinely operate in a multi-jurisdictional environment. By 
working closely with other federal, state, and local law enforcement 
representatives, as well as international police agencies, the Secret 
Service is able to provide a comprehensive network of information 
sharing, resource sharing, and technical expertise that bridges 
jurisdictional boundaries. This partnership approach to law enforcement 
is vital to our criminal investigative mission.

Financial Crimes/Electronic Crimes Task Forces:
    The Secret Service has established a national network of 29 
Financial Crimes Task Forces and 24 Electronic Crimes Task Forces in 
major metropolitan areas across the United States. These task forces 
leverage the combined resources of our federal, state, and local law 
enforcement partners, as well as technical experts from academia and 
private industry, in an organized effort to combat threats and 
effectively investigate crimes directed at our critical infrastructure. 
Collaboration between law enforcement and the private sector is 
critical to our preventative approach to financial and electronic 
crimes. We also build partnerships with academia to ensure that law 
enforcement is on the cutting edge of technology by leveraging the 
research and development capabilities of teaching institutions and 
technical colleges.
    To provide our special agents with the advanced skills needed to 
identify and address cyber vulnerabilities, the Secret Service 
established the Electronic Crimes Special Agent Program (ECSAP) in 
1987. Agents trained through ECSAP are computer specialists, qualified 
to conduct network intrusion investigations and forensic examinations 
of various types of electronic evidence, including computers, personal 
data assistants (PDAs), telecommunications devices, electronic 
organizers, and other electronic media. Currently, the Secret Service 
has approximately 770 ECSAP-trained agents assigned to more than 85 
offices worldwide. We are continuing to expand this program and, by the 
end of FY 2008, the Secret Service expects to have over 1,000 ECSAP-
trained agents.
    Further, the Secret Service will have a key role in the 
implementation of the Administration's cybersecurity activities, as out 
lined in the recent Presidential directive addressing cybersecurity 
policy.
    The Secret Service has adapted to the constantly evolving criminal 
environment. We will continue to aggressively investigate all offenses 
within our jurisdiction to protect consumers and financial 
institutions. The Secret Service is committed to our mission of 
protecting the worldwide integrity of U.S. currency and safeguarding 
the nation's critical financial infrastructure.

                 TRANSPORTATION SECURITY ADMINISTRATION

    Prior to 9/11, the air marshal program consisted of less than 50 
personnel who were classified as civil aviation security specialists 
rather than law enforcement officers. These personnel operated under 
the direction of the Federal Aviation Administration and primarily flew 
international missions. In the aftermath of 9/11, the Administration 
and Congress agreed that a stronger federal air marshal program was 
required. First under the Department of Transportation within TSA, and 
now within DHS, the Federal Air Marshal program is the largest such 
program in the world and has evolved into a critical layer of aviation 
security. The Federal Air Marshal Service (FAMS) today has not only 
expanded in size, but has been enhanced in quality by requiring all air 
marshals to meet the high standards associated with an 1801 law 
enforcement series. Today, Federal Air Marshals fly on thousands of 
domestic and international missions, conduct valuable surveillance 
within airport perimeters, and participate in joint law enforcement 
efforts with other agencies.
    TSA's office of Law Enforcement/FAMS enhanced this operation and 
promotes confidence in our Nation's civil transportation systems 
through the effective risk-based strategic deployment of Federal Air 
Marshals and other law enforcement resources in both air and land-based 
mission assignments. The organization's primary focus is to detect, 
deter, and defeat terrorist or other criminal hostile acts targeting 
U.S. air carriers, airports, passengers, crew, and, when necessary, 
other transportation modes within the Nation's general transportation 
systems.
    The authority for the Federal Air Marshals is found in Title 49 USC 
section 114(q)--Law Enforcement; section 44917(a)--Deployment of 
Federal Air Marshals; section 44903(d)--Authorizing Individuals To 
Carry Firearms and Make Arrests, and, most recently, PL 110-53, section 
1303, which authorizes Federal Air Marshals to participate in Visible 
Intermodal Prevention And Response (VIPR) Teams.
    In addition to the FAMs, the Office of Law Enforcement's resources 
conduct Joint Vulnerability Assessments (JVA) and Man Portable Air 
Defense Systems (MANPADS) assessments. The JVA is a joint effort 
undertaken by TSA and FBI with the purpose of assessing current and 
potential threats to commercial air transportation facilities within 
the United States. TSA has committed to conducting MANPADS 
vulnerability assessments--evaluations of close-range threats such as 
shoulder-fired missiles--at all of the largest airports on an annual 
basis. Also, the FAMS are full partners with the FBI's Joint Terrorism 
Task Force (JTTF). FAMs are assigned to every FBI field office JTTF 
(56) and the National JTTF as well.
    The OLE/FAMS also operate a robust explosives detection canine 
program. TSA has met projections for FY07 with the deployment of a 
total of 422 canine teams in the aviation domain. Additionally, there 
are currently 56 teams deployed in the mass transit environment for a 
current total of 478 teams.
    FAMs have participated in hundreds of TSA-led VIPR operations, 
where FAMs, TSA inspectors, transportation security officers, and any 
TSA assets assist federal agencies and local law enforcement responding 
to specific threats or high-risk situations aimed at the nation's 
transportation network. FAMs also began partnering with other DHS 
agencies towards forming and deploying task-organized VIPR teams 
utilizing the combined skill sets, resources, and expertise of DHS's 
seven major operating agencies. The FAMs have participated in all 
Departmental VIPR teams to date.
    One of FAMS unique deployments includes our response following the 
unprecedented events surrounding Hurricane Katrina and the relief we 
provided to thousands of travelers who were trapped at the Louis 
Armstrong International Airport in New Orleans, while other residents 
inundated the airport in the aftermath of the storm. With virtually no 
state or local law enforcement presence on the airport grounds, the few 
federal officials and employees of the TSA there were quickly 
overwhelmed.
    The FAMS responded to this dire situation by activating a 24-hour 
crisis center during the evening hours of Thursday, September 1. 
Approximately 500 FAMs were then activated from 15 Field Offices. These 
FAMs traveled to New Orleans, restored and maintained security at Louis 
Armstrong International Airport for over three weeks, and ensured the 
safety of TSA personnel as well as the displaced residents on hundreds 
of humanitarian flights out of the stricken city.
    The FAMS's unique capabilities were also exhibited in the early 
morning hours of August 10, 2006, when the FAMS strategically 
redeployed significant assets in reaction to the unfolding terrorist 
plot to detonate liquid explosives to be carried onto airplanes 
traveling to the United States from the United Kingdom. The FAMS were 
able to deploy quickly and efficiently to the United Kingdom to provide 
an additional layer of security onboard airplanes destined for the 
United States. The rapid deployment insured that international 
travelers were protected against any terrorist act that might be 
perpetrated in connection with the plot. Over a 30-day period, the 
FAMS's surge capacity enabled coverage of over 1500 flights between 
major airports in the United States and United Kingdom, utilizing more 
than 1,000 FAMs.

                   U.S. CUSTOMS AND BORDER PROTECTION

    U.S. Customs and Border Protection (CBP) protects our nation's 
borders from terrorism, human and drug smuggling, illegal migration, 
and agricultural pests while simultaneously facilitating the flow of 
legitimate travel and trade.
    As the nation's single unified border agency, CBP's mission is 
vitally important for the protection of the American people and the 
national economy. Nearly 44,000 CBP employees and law enforcement 
officers work in a variety of ways to secure the nation's borders both 
at and between the official ports of entry and also to extend our zone 
of security. CBP secures America's borders through three major law 
enforcement entities: Field Operations, Border Patrol, and Air and 
Marine.
    CBP officers are responsible for enforcing over 400 laws for 40 
agencies at the border, which govern both imports and exports of goods 
and entry and exit of persons and conveyances. To that end, CBP 
officers have the authority to enforce federal civil and criminal laws, 
carry firearms, and make arrests for offenses committed in their 
presence or for felony offenses where the officer has probable cause to 
believe the person committed the crime. CBP's enforcement of border-
related laws is wide ranging, and CBP works closely with various other 
agencies or departments to enforce these laws, including U.S. 
Immigration and Customs Enforcement (ICE), U.S. Coast Guard, U.S. Drug 
Enforcement Administration, Federal Bureau of Investigations (FBI), 
Bureau of Alcohol, Tobacco, Firearms, and Explosives (ATF), and other 
federal agencies. CBP works most closely with ICE, which acts, in most 
respects, as CBP's investigatory arm.
    For example, under Title 18 of the U.S. Code, CBP often enforces 
non-immigration offenses such as smuggling, money laundering, child 
pornography, and criminal trademark infringement. Common immigration-
specific violations of Title 18 at the border include false claims to 
U.S. citizenship, fraud involving identity documents, reproduction or 
fraud involving citizenship documents, forgery or false use of 
passports, and false statements to a federal officer. CBP is also often 
involved in arresting individuals for assault on a federal officer and 
felon in possession of a firearm.
    CBP has primary responsibility for enforcing the immigration laws 
of Title 8 and the customs laws of Title 19 at the border. The 
Immigration and Nationality Act (INA), within Title 8, has its own 
criminal provisions. For example, under INA section 274, the acts of 
illegally bringing in, transporting, harboring, or encouraging someone 
to enter the United States at someplace other than a port of entry can 
result in serious felonies. In addition, violations of Title 8 may also 
form the basis of a Title 18 prosecution. Common prosecutions based on 
violations of the INA discovered by CBP at the border include alien 
smuggling, illegal entry into the U.S., illegal re-entry into the U.S., 
and importation of aliens for immoral purposes. CBP also enforces 
criminal provisions under Title 31; administers the currency and 
monetary instrument reporting requirement of Title 31; interdicts bulk 
cash smuggling; and enforces laws relating to imitation firearms in 
Title 15, Title 17 copyright infringement, exportations contrary to law 
in Title 22, including Trading with the Enemy Act violations of Title 
50, and Arms Export Control Act violations in Title 22.
    In order to enforce these laws, CBP utilizes partnerships with 
other federal agencies. A few examples of these partnerships are 
Operations Uniforce, the Public Health Security and Bioterrorism 
Preparedness and Response Act of 2002 (BTA), and operations within the 
CBP Air and Marine (A&M).
    From January 13, 2008 to January 26, 2008, Border Patrol Agents 
from the New Orleans Sector conducted Operation Uniforce to interdict 
alien and narcotic smugglers. This multi-agency operation was conducted 
utilizing traffic observation units on I-20 operating between the 
Mississippi River and the city of Jackson, Mississippi. Forty Border 
Patrol Agents and two canine handlers from the New Orleans Sector 
conducted the operation with Office of Field Operations (OFO) Special 
Response Team Members, agents from ICE's Detention and Removal 
Officers, CBP Air and Marine, the Mississippi Highway Patrol, the 
Rankin, Madison, and Hines County Sheriff's Departments, along with the 
Pearl and Clinton Police Departments. The intelligence data that was 
gathered during Operation Uniforce provided valuable insight into 
identifying the criminal organizations that use the I-20 corridor for 
human and narcotic trafficking.
    The BTA authorized the U.S. Food and Drug Administration (FDA) to 
receive information regarding imports, enabling the agency to target 
shipments of food for human or animal consumption prior to arrival at 
U.S. ports of entry. The BTA provides CBP the opportunity to assist FDA 
with the prior notice requirements. CBP works jointly with FDA to 
augment an existing automated interface to institute a prior-notice 
reporting requirement with minimal disruption to the trade.
    Under provisions of Title 18, CBP A&M operates in direct support of 
the Coast Guard, Secret Service, DEA, FBI, ATF, and other federal, 
state, and local law enforcement agencies. CBP A&M operates in support 
of DHS operations for CBP, ICE's Office of Investigation, and Federal 
Protective Service and Detention and Removal Operations. CBP A&M also 
provides critical air and marine support to other federal, state, and 
local law enforcement agencies, including the U.S. Secret Service, DEA, 
FBI, ATF, and the Coast Guard.
    CBP A&M operates in support of multi-agency and international 
partnerships to deter and combat the threat of illegal activity. CBP 
A&M has developed skills in air and marine operations by providing 
training and vessel to vessel operations and the integration of air and 
marine assets under the establishment of a joint DEA/Columbian/CBP 
command center in Cartagena, Colombia, enabling the interdiction of 
maritime targets leaving northern Colombia.
    Overall, CBP is responsible for guarding 7,000 miles of land border 
the United States shares with Canada and Mexico and 2,000 miles of 
coastal waters surrounding the Florida peninsula and off the coast of 
Southern California. The agency also protects 95,000 miles of maritime 
border in partnership with the United States Coast Guard.
    To secure this vast terrain, more than 15,500 CBP Border Patrol 
agents and CBP Air and Marine agents, and approximately 20,000 CBP 
officers and agriculture specialists, together with the nation's 
largest law enforcement canine program, stand guard along America's 
front line.

        <bullet>  CBP officers protect America's borders at official 
        ports of entry, while CBP's Border Patrol agents prevent 
        illegal entry into the United States of people and contraband 
        between the ports of entry.

        <bullet>  CBP Air and Marine, which manages the largest law 
        enforcement air force in the world, patrols the nation's land 
        and sea borders to stop terrorists and drug smugglers before 
        they enter the United States.

        <bullet>  CBP agriculture specialists prevent the entry of 
        exotic plant and animal pests, and confront emerging threats in 
        agro- and bioterrorism.

    While carrying out its priority anti-terrorism mission, CBP must 
also work to facilitate the movement of legitimate trade and travelers, 
as the agency processes all people, vehicles and cargo entering the 
United States. On a typical day in fiscal year 2007, CBP processed 
approximately 1.1 million passengers and pedestrians; 70,000 
containers; 304,000 privately owned vehicles; and 83,000 shipments of 
goods approved for entry. Through law enforcement operations and 
partnerships with other federal, state, and local agencies, CBP's 
frontline officers and agents will continue to protect America from the 
terrorist threat while also accomplishing our traditional missions in 
immigration, customs, and agriculture.

                U.S. IMMIGRATION AND CUSTOMS ENFORCEMENT

    U.S. Immigration and Customs Enforcement (ICE) is the lead 
investigative federal agency for enforcing that nation's immigration 
laws under Title 8 of the United States Code, in addition to specific 
law enforcement authority found under Titles 18 and 19, among others. 
Some of the areas included in the enforcement of these laws are 
National Security, Public Safety, Commercial and Identity Fraud, 
Illegal Smuggling of Contraband, and Money Laundering. The merger of 
the legacy federal authorities now makes ICE the second most diverse 
law enforcement agency within the federal government. In 2003, the 
Office of Investigations started with a total of 5,190 agents. As of 
today, there are a total of 5,516 agents, although ICE plans to hire an 
additional 296 agents in 2008 and the President has asked for an 
additional 87 in 2009.
    Given that ICE has such broad law enforcement and investigatory 
responsibilities, we leverage these responsibilities by aligning our 
authorities with the risks that face the nation today. ICE protects 
national security and upholds public safety by targeting terrorist 
organizations and other criminal networks that seek to exploit 
vulnerabilities in our immigration system, in international trade, in 
our financial networks, along our borders, at federal facilities, and 
elsewhere in order to do harm to the United States. The end result is a 
safer, more secure America.
    In this regard, ICE enacted a multi-year strategy of improving 
immigration enforcement through more efficient management, focused 
enforcement efforts that target the most dangerous illegal aliens, 
worksite enforcement initiatives that target employers who defy 
immigration law, and reducing the pull of the ``jobs magnet'' that 
draws illegal workers across the border in search of employment. At the 
same time, ICE stepped up the battle against financial crime and the 
exploitation of legitimate financial networks by criminal organizations 
using methods to earn, move, and store illicit funding needed to 
support their criminal enterprises.
    ICE's risk-based approach shapes interior immigration enforcement, 
in which we are prioritizing everything from criminal aliens and 
fugitives to the application of our customs fraud authorities to 
prevent the importation of tainted commodities and counterfeit 
pharmaceuticals. This approach shapes our methods to target drug and 
other contraband smuggling with financial authorities and international 
partnerships--and it means that we continue to work to thwart the 
illegal export of weapons and sensitive technology.
    To target some of the most dangerous criminals and sophisticated 
criminal organizations, ICE has developed robust initiatives to enforce 
our immigration laws in the interior, including programs that 
specifically target child predators and gang members, ensure compliance 
on the part of those who visit the U.S., target alien absconders--
fugitives who've failed to comply with a lawful judicial order to leave 
the country--and dismantle the infrastructure that supports illicit 
immigration such as illegal employment and the fraudulent document 
trade.
    For example, ICE created its Detention Enforcement and Processing 
Offenders by Remote Technology (DEPORT) Center in FY06, and it has been 
integral to DHS's effort to halt criminal activity by aliens. The 
DEPORT Center conducts interviews of inmates in remote prisons from a 
centralized location. Through the combined effort of the DEPORT Center 
and local ICE resources, coverage is provided to all 114 federal 
detention facilities. This ensures that criminal aliens are taken into 
ICE custody upon the completion of their federal sentences rather than 
being released into U.S. communities.
    While ICE's immigration enforcement initiatives most often relate 
to people wanting to come in to our country, another key risk we guard 
against is efforts to take sensitive technology and arms out. In FY 
2007, arms and strategic technology investigations resulted in 188 
arrests, 178 indictments, and 127 convictions for export-related 
violations--more than any other U.S federal law enforcement agency.
    ICE's 287(g) program, authorized under the 1996 Immigration and 
Nationality Act, has emerged as a key partnership tool in allowing ICE 
to train state and local officers in immigration enforcement. Once in 
place, the 287(g) agreement allows ICE to delegate enforcement powers 
to state and local agencies, who serve as force multipliers in 
immigration enforcement in their communities. In August 2007, ICE 
announced the launch of the ICE ACCESS (Agreements of Cooperation in 
Communities to Enhance Safety and Security) program to expand the 
opportunities for law enforcement partnerships. Under the ACCESS 
program, ICE works with local officials to determine specific 
enforcement challenges and develop partnership plans that help fight 
document fraud, illegal immigration, gang activity or other critical 
law enforcement challenges.
    Recognizing that there are more than 775,000 state and local law 
enforcement officers in the country, ICE is leveraging our authorities 
to develop partnerships under the ACCESS program and the cross 
designation programs such as 287(g) and customs.
    ICE's risk-based approach also shapes our methods to target drug 
and other contraband smuggling. ICE has developed a full cadre of 
investigative expertise--including undercover operations, use of 
confidential informants, wire intercepts, controlled deliveries, 
consensual monitoring, and electronic surveillance--to combat smuggling 
organizations. These smuggling organizations use every imaginable 
method to smuggle contraband into this country, including the use of 
aircraft, automobiles, trucks, maritime vessels, backpacks, tunnels, 
and railways. Additionally, smuggling organizations infiltrate and use 
legitimate businesses and industries as mechanisms for smuggling 
illicit goods and narcotics into the United States.
    In FY07, ICE conducted investigations resulting in the seizure of 
232,000 pounds of cocaine and 1.3 million pounds of marijuana, as well 
as obtained 5,900 narcotics-related convictions. Using our financial 
tools and international partnerships, we are pushing out beyond our 
borders. Our Trade Transparency Units represent unique relationships 
with foreign nations that allow us to share import and export data to 
identify trade anomalies that suggest money laundering. Our agents, 
thanks to these partnerships, are effectively identifying schemes 
designed to hide the illicit proceeds from the drug trade and sale of 
dangerous consumer goods, foreign tax fraud, and other transnational 
criminal activity.
    Other dangers from which ICE protects this nation are less obvious: 
Traditional customs fraud, in many cases, constitutes serious and 
unrecognized public health risks. Take, for example, Operation 
Guardian, an ongoing ICE-led operation with CBP, the FDA, and Consumer 
Product Safety Commission, to investigate imports of substandard, 
tainted, and dangerous products from the People's Republic of China. 
The operation to date has resulted in the seizure of more than 59,000 
tubes of diethylene glycol- and bacteria-laden toothpaste bound for 
U.S. markets and the initiation of joint US/PRC investigations. 
Diethylene glycol is a toxic chemical used to make antifreeze. And this 
is one of many similar cases involving tainted goods which would 
otherwise be on store shelves just waiting for purchase by American 
families.
    The Federal Protective Service, responsible for policing, securing, 
and ensuring a safe environment in which federal agencies can conduct 
their business, seized more than 760,000 prohibited items last year. 
They investigated hundreds of threats posed against the more than 8,800 
federal facilities and millions of visitors to federal buildings 
nationwide.
    ICE's approach--focusing on risk and going after the money--yields 
real results: since 2003, ICE has seized more than $600 million in cash 
and monetary instruments, and more than $580 million worth of real 
property, vessels, aircraft, artwork, vehicles, and jewels. ICE's law 
enforcement and investigatory work can be dangerous and difficult, but 
we tackle our responsibilities each day with pride and professionalism.

                            U.S. COAST GUARD

    The Coast Guard has served as our nation's primary federal maritime 
law enforcement agency since the first Congress of the United States 
created the Revenue Cutter Service in 1790 to enforce maritime laws, 
interdict smugglers, and protect American shipping. The Coast Guard is 
one of the oldest organizations of the federal government and, until 
the Navy Department was established in 1798, we served as the nation's 
only Armed Force afloat. Today, the Coast Guard is the only Armed 
Service with statutory responsibility and authority for direct law 
enforcement action.
    Since the beginning of the Republic, Congress has granted our 
Service expansive authority to board and inspect vessels at sea without 
particular suspicion. After the Civil War, Congress removed geographic 
limitations on our boarding authority and directed the Service to 
enforce or assist in the enforcement of all applicable Federal laws on, 
under, and over the high seas, in addition to waters subject to the 
jurisdiction of the United States. This worldwide boarding authority, 
now codified in 14 U.S.C. Sec. Sec. 2 and 89, is the foundation of the 
Coast Guard's maritime law enforcement mission. Coast Guard boarding 
activity is as critical to the national security and economy of the 
United States today as it was in 1790. Not unlike the boarding officers 
of the Revenue Cutter Service over 200 years ago, today's boarding 
officers lead teams, usually embarked in boats and sometimes delivered 
from helicopters, to ``make inquiries, examinations, inspections, 
searches, seizures and arrests upon the high seas and waters over which 
the United States has jurisdiction, for the prevention, detection and 
suppression of violations of laws of the United States.''
    The Coast Guard conducts an average of 190 boardings each day 
around the world. The daily fare of Coast Guard assets and boarding 
teams includes drug smuggling, alien smuggling, illegal incursions into 
the U.S. Exclusive Economic Zone, breaches of fisheries and living 
marine resources laws, violations of boating safety and navigation 
regulations, substance abuse while operating vessels, and environmental 
crimes.
    The influx of illegal drugs is one of America's greatest maritime 
security threats. The Coast Guard is the lead federal agency for 
maritime drug interdiction in the transit zone--a six million square 
mile area roughly the size of the continental United States including 
the Caribbean, Gulf of Mexico, and Eastern Pacific--and shares lead 
responsibility for maritime threats within U.S. territorial waters with 
U.S. Customs and Border Protection. The Coast Guard's mission is to 
reduce the supply of drugs from the transit zone, originating in South 
America, by denying smugglers the use of maritime, as well as air 
routes and conveyances. In order to overcome the ``tyranny of 
distance,'' the Coast Guard depends on technological innovation, 
partnerships with other federal agencies, and countries and actionable 
intelligence.
    One example of technological innovation is the broad expansion of 
armed counterdrug helicopter capabilities used to disable fleeing 
vessels or to compel them to stop (airborne use of force (AUF)). The 
Coast Guard operates a special armed helicopter squadron of HH-65C 
helicopters, which has been tremendously effective at interdicting 
elusive, high speed go-fast vessels. United Kingdom (U.K.) Royal Navy 
ships are also deploying to the Caribbean Sea with U.S. Coast Guard law 
enforcement detachments who support the U.K.'s armed helicopters, and 
U.S. Navy helicopters operate with Coast Guard gunners on board Navy 
warships in the Caribbean and Eastern Pacific. The overwhelming success 
of AUF has caused drug trafficking organizations (DTOs) to shift 
tactics, using smaller go-fasts with contraband concealed within the 
construction and avoiding the most direct deep water routes between 
departure point and destination. DTOs have also been driven to the 
littorals along Central America where they are more susceptible to 
coastal State interdiction forces.
    The Coast Guard relies on international and interagency partnership 
to complete its missions. One example of this is the Joint Interagency 
Task Force (JIATF) South, which is responsible for directing 
interagency detection, monitoring and sorting of air and maritime drug 
smuggling events; fusing intelligence activities; and planning and 
conducting flexible operations within their respective joint operating 
area. This enables the Coast Guard to interdict and disrupt drug 
smuggling events in the transit zone. Every department and agency with 
a drug interdiction responsibility and role participates in making 
JIATF-South an extremely effective and efficient operation. JIATF South 
also utilizes foreign liaison officers from 11 different countries to 
facilitate transnational cooperative counterdrug efforts.
    One of the emerging and most significant threats we face in 
maritime law enforcement today is manned and unmanned self-propelled 
semi-submersible (SPSS) vessels that transport multi-ton loads of 
cocaine and other illicit cargo bound for the United States. SPSS 
vessels are watercraft of unorthodox construction capable of putting 
much of their bulk under the surface of the water, making them 
difficult to detect. SPSS are typically less than 100 feet in length 
and carry up to five crew and 12 metric tons of illicit cargo (4-6 tons 
typically) at speeds of up to eight knots. SPSS vessels can travel from 
the north coast of South America to the southeastern U.S. without 
refueling. According to the Consolidated Counter Drug Database (CCDB), 
23 SPSS drug smuggling events occurred between January 2001 and 
September 2007. Between October 1, 2007 and February 1, 2008, the CCDB 
reported an unprecedented 27 SPSS events that successfully delivered an 
estimated 111 metric tons of cocaine.
    The SPSS vessels encountered by the Coast Guard are stateless 
vessels built in the jungles of South America with no legitimate use. 
They are built for stealth and the capability to rapidly scuttle. Their 
crews typically abandon and sink the vessels and contraband when 
detected by law enforcement in order to evade U.S. prosecution for drug 
trafficking. Although U.S. interdiction forces nearly always capture 
imagery of detected SPSS and the crews abandoning them before they 
sink, attempting to access and recover contraband before a scuttled 
SPSS sinks is very dangerous and often impossible.
    If operation and embarkation in an SPSS were illegal, U.S. 
interdiction forces and U.S. Attorneys would have the necessary legal 
tools to combat the SPSS threat even in the absence of recovered drugs 
or other contraband. Criminalizing the operation of SPSS vessels on 
international voyages would improve officer safety, deter the use of 
these inherently dangerous vessels, and facilitate effective 
prosecution of criminals involved in this treacherous and emerging 
trend.
    The Coast Guard has closely coordinated with the Department of 
Justice to draft an amendment to Title 18, United States Code, to 
address this concern. We have already briefed committee staff on this 
amendment, and urge Committee action on, and House passage of, the 
amendment as soon as possible. The Coast Guard projects 85 SPSS events 
carrying 340 metric tons of cocaine during FY 2008, so we need your 
help now to counter this dangerous emerging threat.
    Drug trafficking innovation is, of course, not limited to SPSS 
vessels. In 2007, the Coast Guard interdicted five separate vessels 
carrying a combined 21.5 MT of cocaine concealed in liquid form. 
``Liquid cocaine'' consists of cocaine paste and base dissolved, 
usually in fuel oil, and concealed within tanks or holds onboard 
smuggling vessels. This smuggling tactic allows smugglers to quickly 
jettison the illicit cargo into the sea when encountered by law 
enforcement assets. To combat this threat, the Coast Guard, with our 
partners at ICE, the Drug Enforcement Administration (DEA), JIATF 
South, and PANEX, has developed procedures for the detection, 
identification, and preservation as evidence of liquid cocaine. 
Additionally, the Coast Guard has used advanced interdiction tactics to 
board and secure smuggling vessels to prevent the crews from destroying 
evidence or scuttling vessels.
    As we turn to the Coast Guard's alien maritime interdiction 
operations, we would like to thank the House Judiciary Committee for 
hearing and acting on our request in 2007 for enhanced offenses 
involving maritime alien smuggling. Once enacted, the statutory 
amendment to 18 U.S.C. Sec. 2237, developed by the Committee last fall 
and now appearing in Title VI of the Coast Guard Authorization Act, 
H.R. 2830, will be vital to Coast Guard mission accomplishment.
    As the lead federal agency for maritime law enforcement, the Coast 
Guard is responsible for enforcing immigration laws at sea. Thousands 
of people try to enter this country illegally every year using maritime 
routes, many via dangerous smuggling operations in dangerously 
overloaded, unseaworthy, or otherwise unsafe vessels. The flood of 
undocumented migrants in boats onto America's shores is both a threat 
to human life and a violation of U.S. and international laws. Coast 
Guard migrant-interdiction operations are as much humanitarian efforts 
as they are law-enforcement missions. In fact, the majority of Coast 
Guard migrant interdiction cases begin as search and rescue missions.
    The primary illegal migration threat comes from Haiti, the 
Dominican Republic, and Cuba; however, the Coast Guard has interdicted 
migrants of various nationalities throughout the Western Hemisphere. 
Successful illegal immigration potentially costs U.S. taxpayers 
billions of dollars each year in social services. The Coast Guard's 
mission is to interdict undocumented aliens as far from U.S. shores as 
possible and return them to their countries of nationality or origin. 
Swift repatriation deters many potential migrants and minimizes costly 
processes arising from illegal entry into the United States. In 
addition to relieving our citizens of this financial burden, the Coast 
Guard's efforts help to support legal immigration systems. Protection 
from political persecution and torture are also important concerns for 
the U.S. During the course of migrant interdictions, Coast Guard crews 
may encounter migrants requesting protection from persecution or 
torture. U.S. Citizenship and Immigration Services and the Department 
of State Bureau of Population, Refugees and Migration establish 
policies in this area and handle all potential protection cases arising 
from interdiction at sea.
    The Coast Guard relies on technological innovation and partnerships 
with other federal agencies and countries to counter illegal alien 
smuggling. In the Mona Pass between Puerto Rico and the Dominican 
Republic, the deployment of mobile biometrics capability on 110-foot 
patrol boats and robust interagency support have resulted in a 
reduction in the flow of illegal migration by nearly 50 percent. The 
referral of 118 cases of criminal aliens identified at sea through 
mobile biometrics, including 33 aggravated felons and 77 aliens 
attempting to illegally re-enter the U.S. after deportation, seems to 
have stemmed the flow in what was the single largest migrant smuggling 
vector before biometrics-based prosecutions. This project would not 
have been possible without the full partnership of the DHS US-VISIT 
program, U.S. Customs and Border Protection, U.S. Immigration and 
Customs Enforcement, the U.S. Attorney's Office in San Juan, the 
Department of State, and the Dominican Navy.
    Similar to drug traffickers, migrant smugglers also profit from 
technological innovations--particularly high-speed, multi-engine go-
fast boats. Go-fast smuggling vessels are replacing rafts and rusticas 
as the preferred mode of transportation due to the increased chance of 
success. We estimate that the rate of success for a raft or rustica is 
generally less than 25 percent, and never better than 50 percent. By 
comparison, the rate of success for a go-fast is estimated at 70 
percent. The multimillion dollar human smuggling enterprise brings 
thousands of undocumented aliens to the U.S. at a price of up to 
$10,000 a head. Despite a 35 percent increase in the number of cutter 
and aircraft resource hours targeted against illegal migration in the 
Florida Straits, migrant flow continues to increase in that vector. The 
transition to go-fasts constitutes a significant challenge for 
interdiction assets.
    The effectiveness of any alien interdiction model is dependant upon 
the ability to deliver consequences to smugglers through prosecution or 
other action. It is imperative that we secure more effective 
prosecution tools, including the closure of loopholes that currently 
impede investigation and consequence delivery, longer sentences, 
special seizure, and forfeiture provisions for vessels outfitted for 
smuggling. We must also enhance sentences for vessels that fail to stop 
while engaged in alien smuggling.
    The President's Maritime Operational Threat Response (MOTR) Plan 
provides for coordinated U.S. Government response to threats against 
the U.S. and its interests in the maritime domain by establishing roles 
and responsibilities enabling rapid and decisive response. The Coast 
Guard, as the Nation's leading maritime law enforcement agency, 
fulfills DHS's role as one of the principal MOTR agencies in the 
maritime domain. The Coast Guard brings broad law enforcement and 
military authorities, planning, and execution skills to operations 
requiring interagency coordination through the MOTR process in support 
of both maritime law enforcement and homeland security missions. The 
operations can include the deployment of integrated and adaptive 
capabilities (including use of force) required to locate, identify, 
intercept, apprehend, exploit, and, when necessary, defeat maritime 
threats. We use the MOTR process daily to engage and coordinate with 
our domestic interagency partners and with our foreign maritime law 
enforcement partners on drug, migrant, piracy, and fisheries cases.
    The links between place, crime, control measures, and national 
identity are becoming more complicated--especially at the border. To a 
greater extent than ever before, crime and control measures are not 
always linked to a common national territory. Instead, criminals often 
exploit international borders, turning the seams between sovereigns 
into operational barriers for law enforcement. The Coast Guard's unique 
authorities, capabilities, competencies, and partnerships, foreign and 
domestic, enable the Coast Guard along with our fellow Department of 
Homeland Security agencies, to consistently and effectively enforce 
maritime laws, interdict smugglers and drug traffickers, and protect 
American resources.

                               CONCLUSION

    Thank you again for this opportunity to testify on behalf of the 
Department of Homeland Security's law enforcement and investigatory 
responsibilities. Due to the breadth of the hearing, this written 
statement necessarily only outlines some of the important 
responsibilities that DHS fulfills in protecting this great nation. We 
will be pleased to answer any questions at this time.

                                <F-dash>

    Mr. Scott. Thank you, Admiral Justice. We will now have 
questions from the members, and I will recognize myself for 5 
minutes.
    Mr. Brown, you had mentioned the standard for canines. Are 
you working with experts to ascertain whether or not a national 
standard for training canines would be appropriate?
    Mr. Brown. Yes, sir, we are. We have an ongoing program 
with the FBI and the National Institute of Justice called the 
Scientific Working Group Dog and Orthogonal Detector 
Guidelines. It is to establish the best practices to do this.
    Mr. Scott. You also have a no-fly list. If you believe you 
are wrongly on the no-fly list, is there a way to get your name 
off the list?
    Mr. Brown. There is a redress process that TSA has, yes, 
sir.
    Mr. Scott. Is that very complicated?
    Mr. Brown. Sir, I am not that familiar with it, to be 
honest with you. I can give you a little bit of information 
about it. I know that you have to apply to it and it takes a 
little--but I am not sure how complicated the process really 
is. I can find out for you, though, and get back to you.
    Mr. Scott. Thank you.
    Mr. Self, you issued the ID cards for port workers?
    Chief Self. No, sir--U.S.
    Mr. Scott. Who does?
    Chief Self. I believe that would be the Office of Field 
Operations.
    Mr. Scott. Office of Field Operations of what?
    Chief Self. Under CBP, sir.
    Mr. Scott. Are you involved in port operations at all?
    Chief Self. U.S. Border Patrol, sir, typically are not. We 
will help the OFO officers in the field doing certain 
operations at times.
    Mr. Scott. Mr. Parmer, if someone is detained at a port of 
entry and has dependent children, and they are the only person 
available, what happens to the children?
    Mr. Parmer. We have protocols in place for humanitary 
concerns. If it is a sole care provider then the totality of 
the circumstances is taken into consideration, and ordinarily 
if it is a sole care provider situation the individual is 
released with a notice to appear later in order to take care of 
the children.
    Mr. Scott. If you have death of persons in the custody of 
ICE, are those deaths reported under the Deaths in Custody Act? 
Do you know?
    Mr. Parmer. I do not know, sir. I am sorry.
    Mr. Scott. If you could----
    Mr. Parmer. We do keep track of the individuals who, within 
our custody, who are obviously--die--but I don't know if it is 
reported under that particular act.
    Mr. Scott. You are coordinating your activities with local 
law enforcement?
    Mr. Parmer. Yes, sir.
    Mr. Scott. If local law enforcement begins enforcing 
immigration law, is there any potential for problems with 
community relations between the local police and the community 
that may have many immigrant citizens?
    Mr. Parmer. Yes, sir. As we have learned, there are--with 
the merger of the agencies within DHS, there are--for those of 
us who were unacclimated to the immigration arena before March 
1, 2003, it has been a learning process for all of us. And 
there are actually many social and political concerns that 
relate to the immigration concerns. But if the State or local 
authorities implement immigration statutes on their own, as we 
have learned in the Federal arena, there are all these 
implications for relations with the community.
    Mr. Scott. What training is done to make sure that local 
police do not engage in illegal profiling?
    Mr. Parmer. Well, in terms of what we do within ICE, we 
have--as part of title 8-287, section 287G, we provide training 
for the State and local authorities to look for immigration 
violations; but profiling is not a part of that--that is a no-
no within our scope of order. We don't profile, so----
    Mr. Scott. That is because your agents have been trained. 
Local law enforcement may not have the same training.
    My time is expired, and I may come back for a second round.
    Mr. Parmer. Sure.
    Mr. Scott. Mr. Gohmert?
    Mr. Gohmert. Thank you. And I appreciate you all's 
statements.
    First of all, let me ask Mr. Parmer: After your agency, 
ICE, is notified that an illegal alien is in local custody, 
does ICE have the authority to say, ``Go ahead and detain 
them,'' and from that point forward the Federal Government will 
reimburse local law enforcement for holding them?
    Mr. Parmer. We have the authority to advise the local 
authorities to detain them, but I am not sure what the 
reimbursement protocols are.
    Mr. Gohmert. Because of course if you advise local law 
enforcement to detain somebody--and this is a complaint I have 
heard from local law enforcement--they can be told to detain 
somebody and then hold them for 30 days, and then ICE will come 
back and say, ``Well, we decided not to pursue it,'' and so 
they are out all that money for an individual they have held 
which, around my jurisdiction is around $50 a day. And that is 
an awful lot of money for the Federal Government to ask a local 
government to be out, and then not reimburse. If you are not 
familiar with the answer to that question, who do you think 
would be?
    Mr. Parmer. Well, sir, we are divided up within ICE into 
the Office of Investigations, which is the component I am 
representing here today, although I am speaking on behalf of 
all of ICE, but we also have Detention and Removal Operations, 
the Federal Protective Service, the Office of International 
Affairs----
    Mr. Gohmert. But my question, who would----
    Mr. Parmer. The more appropriate entity to answer that 
question would be Detention and Removal Operations.
    Mr. Gohmert. But you don't know who is in charge of that?
    Mr. Parmer. Mr. Gary Mead is the director.
    Mr. Gohmert. Okay. Thank you.
    Mr. Scott. Since you are representing part of the agency, 
we may have good questions that you could have the appropriate 
person--that would be helpful.
    Mr. Parmer. Yes, sir. He is not here today, but----
    Mr. Scott. That is why we include the submitted questions.
    Mr. Parmer. Yes, sir. Thank you.
    Mr. Gohmert. Mr. Stenger, when personal identification 
information is stolen from the Internet, how does and when does 
the Secret Service become involved in that?
    Mr. Stenger. Mr. Congressman, we don't have any specialists 
for investigations. If a case is brought to our attention we 
evaluate each one on the merits of the case----
    Mr. Gohmert. Somebody has to bring it to your attention? 
See, you brought that up in your opening statement and I wasn't 
aware that you got involved in that, other than the FBI did, 
but did I understand right? That is something you get involved 
in if it is brought to your attention?
    Mr. Stenger. That is correct, sir. There are a number of 
agencies that have cross-cutting jurisdiction, including the 
FBI, Postal Inspectors, as well as Secret Service, but if these 
types of cases--if it is access device or computer fraud--one 
of the violations that we investigate--if brought to our 
attention, we will take the case in----
    Mr. Gohmert. But someone has to bring it--my time is so 
limited. I hate to be rude and keep cutting you off, but to go 
to my question, at what point--what threshold--do you get 
involved? That is when somebody brings it to your attention, is 
that right?
    Mr. Stenger. That is correct.
    Mr. Gohmert. Thank you.
    Let me ask about the no-fly list, Mr. Brown. After TSA 
takes somebody off that list--like I have got a general,--
general, served 29 years in the military, and he was on the 
terrorist watch list. It took a while to get his name removed 
by TSA, and yet the airlines still have trouble recognizing he 
is not on the list because he is not off their list yet.
    And so it seems kind of absurd to treat a real hero like 
this, and I understood from Secretary Chertoff when he 
testified last week, you remove them but it doesn't seem like 
there is any follow-up to make sure the airlines remove them 
off. And so it seems almost like a Seinfeld episode: You remove 
them off, but nobody gets them out there in the field off the 
list, which means what good does it do?
    And so, is there follow up that you do with the airlines to 
make sure they take them off the list?
    Mr. Brown. Yes, sir, there is. I am not familiar with the 
process, but there is some follow up. I do know that.
    Mr. Gohmert. There is some follow up, but you don't know 
what it is?
    Mr. Brown. No, sir, I don't. I am not familiar with that.
    Mr. Gohmert. Think you could find out what it is?
    Mr. Brown. Yes, sir. Certainly.
    Mr. Gohmert. So we can follow up on the follow up.
    And then as far as Chief Self, we had a Border Patrol agent 
from my district in Henderson, Clint Thrasher, that was--his 
family was told he was following illegal aliens when his--I 
believe it was a Cessna--went down. Of course there was some 
concern, you know, was he being fired on? Was there anything 
like that? I just wondered, did NTSB or any other Federal 
agency find a reason for that crash and give a specific reason?
    Chief Self. Yes, sir. NTSB, FBI, OPR, and FAA all 
investigated that crash. The finding was pilot error, and he 
was, of course, killed in 2007 while in the line of duty.
    Mr. Gohmert. Okay. So they all attributed it to pilot 
error. Was there any evidence at all that his plane was ever 
fired upon?
    Chief Self. No evidence whatsoever, sir.
    Mr. Gohmert. Well, I might encourage you to pass that on to 
Secretary Chertoff. He wasn't aware we lost anybody like that.
    So, thank you. I see my time has expired.
    Mr. Scott. Thank you.
    Mr. Delahunt was next, and I understand you want to defer 
to the gentleman from New York.
    The gentleman from New York, Mr. Nadler?
    Mr. Nadler. Thank you. And I appreciate the gentleman 
deferring; I have a meeting to go to shortly.
    Mr. Parmer--that the ICE has invaded people's homes--ICE 
agents banging on people's doors--agents have entered people's 
bedrooms. Assistant Secretary Myers stated, ICE agents only 
enter with the--consent. Do you agree with that?
    Mr. Parmer. Yes, sir.
    Mr. Nadler. And when the police--your home brandishing--who 
may not be able to understand, how do you get consent?
    Mr. Parmer. Well, we have bilingual agents and officers who 
are out on these, and that is--the early morning hours are 
often the best time to catch individuals at home, but we always 
have----
    Mr. Nadler [continuing]. Many of these people that I have 
known, I--the people banging on my door demanding entrance, 
what did I do? Is that informed consent?
    Mr. Parmer. I can't speak to anecdotal stories, but I know 
that we have a professional and----
    Mr. Nadler [continuing]. Lawsuits are pending, they are not 
anecdotal stories.
    Mr. Parmer. They are lawsuits pending, and they are still 
in litigation, so----
    Mr. Nadler. What standards?
    Mr. Parmer. If an individual is asked to allow agents to 
enter their residence, then they enter. We have had instances 
where--in the lawsuit in which you are referring to--a great 
many of the requested entries were--the agents wound up 
standing by the residence for hours on end waiting for someone 
either to come in or out of the residence so they could conduct 
their interviews; but they did not forcibly enter any 
residence. That is just against the law.
    Mr. Nadler. Let me go further. ICE has stated--there have 
been a lot of reports--U.S. citizens are being arrested. What 
is ICE's policy regarding collateral corrections? What 
compensation do you give to people who are illegally arrested?
    Mr. Parmer. No one is arrested until their alienage is 
determined. If someone is----
    Mr. Nadler. Excuse me, I don't think that is true. U.S. 
citizens have been arrested.
    Mr. Parmer. If we can determine alienage on the spot then 
they are immediately released. As soon as we can reasonably 
determine the citizenship of an individual in our custody while 
we are detaining----
    Mr. Nadler [continuing]. Five o'clock in the morning. How 
can you determine alienage? Five o'clock in the morning, on the 
spot?
    Mr. Parmer. Any combination of things: documentation, a 
combination--any reasonable responses to questions, 
documentation----
    Mr. Nadler. So you think it is reasonable that anybody, as 
an American citizen, should produce his passport or other 
documentation, on demand, at 5 o'clock in the morning?
    Mr. Parmer. I do.
    Mr. Nadler. You do?
    Mr. Parmer. I do think that is reasonable. I mean, if 
someone awakened me at 5 o'clock in the morning, I would be 
able to produce my driver's license or any other document to 
show that I was a legitimate citizen. I do.
    Mr. Nadler. And what if you didn't drive?
    Mr. Parmer. Then most States have identification cards.
    Mr. Nadler. How do you know when people don't have these--
identification cards----
    Mr. Parmer. And our agents are not bound by just that 
particular documentation.
    Mr. Nadler. Are there any guidelines that have been 
published to help to show what you would look for?
    Mr. Parmer. Yes, sir. We have published guidelines to the 
field; we have a checklist that we go down. We take great 
precaution in ensuring that no U.S. citizens----
    Mr. Nadler. Yet, ICE has admitted--U.S. citizens have been 
arrested.
    Mr. Parmer. No, sir. I don't acknowledge that----
    Mr. Nadler. You don't. Then why--as collateral?
    Mr. Parmer. Collateral arrest could be individuals who were 
not targeted, but who happened to be illegal aliens who were 
present at the time of the individual who was targeted----
    Mr. Nadler. My time has expired, but I would request that 
you supply the Committee, please, with all the written 
guidelines that are supplied in training, that are supplied to 
agents so that when you go to somebody's house at 5 o'clock in 
the morning, what their instructions are to obtain consent, and 
what the guidelines are to determine alienage under those 
circumstances.
    Mr. Parmer. I would be happy to do that----
    Mr. Nadler [continuing]. Figures for the--how many U.S. 
citizens have been arrested in the last year----
    Mr. Parmer. I would be happy to provide that, sir.
    Mr. Nadler. Thank you.
    Mr. Scott. Thank you. The gentleman's time has expired.
    The gentleman from North Carolina, Mr. Coble?
    Mr. Coble. Thank you, Mr. Chairman.
    It is good to have you all with us, gentlemen.
    Admiral, last year, I am told, the Coast Guard confiscated 
more than 350,000 pounds of cocaine on the high seas, 
surpassing all previous records. How has the interagency 
efforts between the United States and our international 
colleagues contributed to the Coast Guard's interdiction 
success in transit zones?
    Admiral Justice. Sir, we have established, over the past 
few years, 27 separate bilateral agreements with foreign 
nations--various foreign nations: Colombia, Ecuador, Venezuela, 
Dominican Republic, et cetera--and we use those bilateral 
agreements to have the ability to do law enforcement with the 
flag-state vessels. And we exercise those authorities on a 
daily basis.
    Our ability to work with those foreign nations--which we 
do, as I said, daily--has the ability for us to deliver 
consequences to those foreign nations, the peoples.
    Mr. Coble. Are my figures correct: 350,000 pounds?
    Admiral Justice. That is correct, sir.
    Mr. Coble. Mr. Stenger, the USA PATRIOT Act mandates Secret 
Service to establish a nationwide network of electronic crimes. 
Have these task forces been helpful in combating cyber attacks 
on the Nation's financial and banking infrastructure?
    Mr. Stenger. Yes, sir, I believe they have. We have a 
national network of 24 of these electronic crimes task forces 
in conjunction with 29 financial crimes task forces, and I 
think the sharing of information and the relationships that 
have developed there--with academia, with the private sector--
especially the private sector, because they are, in fact, in 
most of these incursions and hackings, are the victims.
    So we are dependent upon them to inform us of this 
information, and the electronic crimes task forces really 
strengthen those relationships, as well as strengthen the 
relationships with our local and State partners to develop that 
sharing of information, that when they receive information on 
something like this, we can share that information and bring 
all of the appropriate resources to bear.
    Mr. Coble [continuing]. Thank you.
    Mr. Self, describe, if you will, ICE's efforts to identify, 
arrest, and remove alien gang members.
    Chief Self. Border Patrol really has no interaction with 
ICE as it pertains to alien gang members, other than when we 
apprehend an alien gang member, at that point in time we will 
turn it over to ICE for prosecution. Sir, if you are speaking 
operationally, as to what they do in areas such as San Antonio 
or L.A., we don't take part in those operations with them.
    Mr. Coble. Anybody? Anybody want to respond to that 
question?
    Mr. Parmer. Yes. We, through Operation Community Shield, we 
do target illegal alien gang members. Since inception, we have 
arrested well over 8,000 illegal gang members--illegal alien 
gang members--within the last fiscal year, over 3,300. I am not 
sure, other than--specifically what your question is, how we--
--
    Mr. Coble. Yes----
    Mr. Parmer. Very often, it is referrals from the local 
constabularies--the State and local department--that they are 
having a gang problem in their area, and we respond and try to 
develop as much law enforcement intelligence as we can based 
upon the referral, and then go out and do a sweep of the area 
in question.
    Mr. Coble. Admiral, before my time expires, let me come 
back to--Alien Smuggling Act. The amendments were part of the 
2008 Coast Guard authorization, generally, tell the 
Subcommittee, if you will, why amending the Maritime Alien 
Smuggling Act is essential to the Coast Guard anti-smuggling 
effort.
    Admiral Justice. Yes, sir. Right now, when illegal aliens 
on the high seas are smuggled, when we catch the boat we have 
got the crime in front of us. The current laws, the penalties 
are misdemeanor-level offenses, they don't have any teeth, and 
they are not an inhibitor to the smugglers. In this--that the 
2237 will put some teeth into our ability to enforce these 
laws.
    Mr. Coble. Thank you.
    My time has expired. I yield back, Mr. Chairman.
    Mr. Scott. Thank you.
    Admiral Justice, were you describing one that is on the 
books, or the one that you want on the books?
    Admiral Justice. The one that is on the books now is the 
one that is not--it is weak; it is not strong enough. I am 
describing the one that we have worked to get on the books, 
sir.
    Mr. Scott. Thank you.
    The gentleman from Massachusetts, Mr. Delahunt?
    Mr. Delahunt. Thank you, Admiral, for the outstanding work 
that the Coast Guard is doing on behalf of the country. You 
indicated that we have an agreement with Venezuela. How is that 
working? What kind of a grade--as far as that particular 
agreement?
    Admiral Justice. Surprisingly enough, sir, when it comes to 
counter-drug operations and counter-drug interactions, there is 
a facet of the Venezuelan government that will interact with us 
and we will have communications with them. So that is ongoing, 
sir.
    Mr. Delahunt. They get a good report card?
    Admiral Justice. Yes, sir.
    Mr. Delahunt. Mr. Parmer, are you familiar with the case of 
Mahir Arar? How long have you been with the--department?
    Mr. Parmer. March 1, 2003.
    Mr. Delahunt. March 1, 2003. Are you familiar----
    Mr. Parmer. Since it's inception.
    Mr. Delahunt [continuing]. Of Mahir Arar, a dual national 
Canadian-Syrian?
    Mr. Parmer. The name doesn't ring a bell, sir, but the 
circumstances----
    Mr. Delahunt [continuing]. Facts--because I am interested 
if there is a policy within ICE or its predecessor, INS. On 
September 26, 2002 this individual, Mr. Arar, was flying from 
Zurich to Montreal, and he was transiting through JFK Airport 
in New York, and there he was detained for hours by FBI, 
presumably by ICE or its predecessor----
    Mr. Parmer. Yes, sir.
    Mr. Delahunt [continuing]. And the NYPD. And the next day 
he was sent to a detention facility in Brooklyn where he was 
further interrogated, and INS officials informed him that they 
would like him to--return to Syria.
    This is an individual who was born in Syria; he is around, 
I think, around 35 years old. He had spent the last 20 years of 
his life in Canada--was a Canadian national. He said no, he 
didn't want to return to Syria. He was on the watch list; it 
was alleged that he was an Al Qaida associate.
    Subsequently that was proven to be correct, but on 
September 28, he was given a document saying that he was 
inadmissible under section 235C of the Immigration and 
Nationality Act because he was a--of al Qaida. On October 2 he 
was permitted a 2-minute phone call; he called his mother-in-
law up in Ottawa, and he expressed his concern to her that he 
would be sent to Syria.
    On October 4 he had a visit from the Canadian Counsel who 
told him, ``Don't worry about it; it won't happen.'' October 6 
he was asked by American officials why he did not want to go to 
Syria, and he informed them that he was concerned about being 
tortured because he hadn't met his military obligation prior to 
his leaving at around, I think, 17 or 18 years old. In 
addition, he was a Sunni, he indicated.
    On October 8 he read a document saying that they decided, 
based on classified information, that he was Al Qaida and that 
the INS director had decided to send him to Syria. Protestors 
say that he would be tortured, but that didn't seem to cause 
any consternation. And they are saying that if he was taken in 
change to a private jet, flown to Jordan and then on to Syria, 
we--is there a policy in terms--you are not familiar with that 
case, now that I am----
    Mr. Parmer. Mr. Delahunt, no. I apologize----
    Mr. Delahunt. Don't apologize.
    Mr. Parmer [continuing]. But I am not familiar with it. But 
my colleague, Ms. Acom, just passed me a note saying that she 
is familiar with it, but as you alluded, there is a DHS-OIG 
report dealing with that particular issue that is classified.
    Mr. Delahunt. Right. I mean, well, just about everything is 
classified. But I guess what I am looking for is an 
unclassified to what the policy is when they are a dual citizen 
of another country, and in this case specifically, why Syria 
rather than Canada?
    Mr. Parmer. That is a very good question, sir, and I don't 
know--obviously he was not a U.S. citizen, so he should have--
it would stand to reason that he should have gone back to 
Canada before any decision was made, but I--because of the 
nature of the issue, I can't--and my unfamiliarity with it--I 
can't respond to your question.
    Mr. Delahunt. But somebody has got to respond at some point 
in time.
    Mr. Parmer. Perhaps our OIG could meet with you in a 
different setting and----
    Mr. Delahunt. But you know, the American people are very 
concerned about how we are viewed across the world; and it is 
incidents like this that erode respect for the United States, 
because if one had an opportunity to examine the Department of 
State reports, it was inevitable--at least if you can rely on 
those reports--that he was going to be tortured in Syria, and 
he was. That doesn't bespeak well of what occurred, and 
hopefully there has been a review of that decision, and the 
American people deserve to know why he was sent to Syria rather 
than to Canada.
    Mr. Parmer. Yes. Yes, sir. I can't speak to that; it 
predates the Department of Homeland Security and Immigration 
and Customs Enforcement. But I can assure you, in my tenure 
with this organization, nothing like that has occurred.
    Mr. Delahunt. Thank you.
    Mr. Parmer. Thank you, sir.
    Mr. Scott. Thank you.
    The gentleman from Ohio, Mr. Chabot?
    Mr. Chabot. Thank you very much, Mr. Chairman.
    Last week--and I will address this to anyone who wants to 
handle it--last week the Washington Post published an article 
highlighting the very real possibility of a cyber attack on our 
Nation's infrastructure by cyber terrorists. This article, 
together with the reports that botnets have invaded more than 5 
million computers across the Nation and are ``the weapon of 
choice for criminals,'' according to FBI director Robert 
Mueller, illustrate the seriousness of this issue.
    What is the Department of Homeland Security doing to ensure 
that our cyberspace is secure, and does law enforcement have 
the tool it needs to effectively investigate and prosecute 
these types of crimes to keep our Nation safe?
    Mr. Stenger. Speaking for the Secret Service, sir, we work 
very aggressively on cyber security issues and the various 
aspects of cyber security; and some concerns the overall system 
security. Our role in the Department of Homeland Security, as 
an investigative agency, is to investigate the criminal areas.
    And I think one of the issues that we have found a lot of 
times is complementary: terrorism, law enforcement and crime 
are not things that don't go well together. Many times we 
find--and I think the old adage that not every criminal is a 
terrorist, but every terrorist is a criminal--and we find more 
and more, the methods of the criminals that are out there using 
cyberspace and electronic crimes actually enable the funding of 
some of their activities.
    So the lessons we learn and the information that we are 
receiving, both from our law enforcement partners here, from 
the private sector, as well as many of our law enforcement and 
private sector partners overseas, is really giving us some 
information, I think, that is very important to move into the 
overall cyber security strategy.
    Mr. Chabot. Yes, sir.
    Admiral Justice. Sir, I will add--I know, even this morning 
listening to the Coast Guard CIO, you know, briefing our 
commandant about what he is doing today, DHS is focused and 
aggressively attending to this issue--DHS at large. There is a 
meeting today; I think there is a tabletop sort of exercise at 
that level where they are talking about these issues.
    They are looking at having some sort of a national PFO, 
similar to how DHS is attending to the pandemic challenge. You 
know, cross-cutting, obviously is, as you know, an interagency, 
intergovernmental issue. But it is absolutely on the front 
plate of the DHS.
    Mr. Chabot. Anybody else care to comment? Let me just bring 
to your attention a bill that has been introduced called the 
Cyber Security Enhancement Act of 2007. It was introduced by 
Congressman Adam Schiff, who is a Democrat from California, and 
myself--I happen to be a Republican from Ohio--so it is a 
bipartisan bill; we have 20 co-sponsors so far. In short, the 
bill would amend the Federal Criminal Code to do a number of 
things.
    I will list those just briefly here: Number one, prohibit 
accessing a protected computer to obtain unique identification 
number, address, a routing code, or access device; two, revise 
the definition of protected computer to include computers 
affecting interstate or foreign commerce or communications; 
three, expand the definition of racketeering to include 
computer fraud; four, redefine the crime of computer-related 
extortion to include threats to access without authorization or 
to exceed authorized access of a protected computer; five--and 
there are only seven--impose criminal penalties for conspiracy 
to commit computer fraud; six, require forfeiture of property 
used to commit computer fraud; and seven, impose criminal 
penalties for damaging ten or more protected computers during 
any 1-year period.
    And it also directs the U.S. Sentencing Commission to 
review and amend its guidelines and policy statements to 
reflect congressional intent to increase criminal penalties for 
computer fraud. Without going into great detail, does that seem 
like something that might make it--might be a better tool for 
law enforcement?
    Mr. Stenger. Yes, Congressman, I am familiar with that. We 
do support that because I think in today's environment with 
cyber crimes, the evolving nature of these types of crimes need 
to be addressed in evolving legislative initiatives in order to 
be able to address those appropriately.
    And whether it is new laws or enhancing the existing laws, 
I think it is very opportune to be able to do that as these 
crime types have developed. So we are very supportive of the 
Committee looking at new ways to address the evolving criminal 
nature of what is taking place.
    Mr. Chabot. Thank you very much.
    I see my time has expired, so I will yield back.
    Mr. Scott. Thank you.
    The gentlelady from Texas, Ms. Jackson Lee?
    Ms. Jackson Lee. Mr. Chairman, thank you so very much, 
and----
    Admiral Justice. I would say it is a DHS issue, that TSA 
should technically be overseeing the TWIC issue. We are 
supporting it in the ports, and we feel at this time--it is a 
phased implementation, and we feel we are on track to move 
forward.
    Ms. Jackson Lee. Even though----
    Admiral Justice. Yes.
    Ms. Jackson Lee [continuing]. And the question is, do you 
have enough personnel to----
    Admiral Justice. Yes we do, ma'am. The 2009 budget request 
that we have, that is the right amount.
    Ms. Jackson Lee. Let me just ask----
    Admiral Justice. Okay. Yes, ma'am.
    Ms. Jackson Lee [continuing]. I don't ask questions. Let me 
go straight to the question?
    Mr. Brown. Well, we work off of a protocol that is dictated 
by threat--on our ability, and we have assessed all the flights 
that we--by a risk-based strategic deployment policy. That is 
how we identify the flights that we are wanting to address. I 
am not quite sure what you mean, ma'am.
    Ms. Jackson Lee. Well, let me stop you----
    Mr. Brown. Sure.
    Ms. Jackson Lee [continuing]. What I would like to know 
is----
    Mr. Brown. Yes, ma'am.
    Ms. Jackson Lee [continuing]. That we are having difficulty 
with the children at the border--, and I would like to know 
what we are doing--children being held--what are you doing to 
ensure that that is not happening.
    Chief Self. Yes, ma'am. Border Patrol is presently working 
with the Office of Refugee Resettlement. What happens is, when 
we apprehend an unaccompanied minor, we will take him in and we 
will go through the processing with the minor. At that point, 
we start engaging with ORR and trying to find them bed space.
    There are times when we can't find bed space; we just 
revamped a hold room policy that ensures that that minor is 
taken care of. Within the hold policy, it outlines that that 
minor will have two to three hot meals a day, and any request 
for----
    Ms. Jackson Lee [continuing]. For 72 hours, that 
absolutely, without a doubt.
    Chief Self. I cannot tell you that. But I can tell you that 
we are doing everything we can to work with ORR, civil rights, 
civil liberties, to ensure that they are moved out of our 
detention space as quickly as we can.
    Ms. Jackson Lee. Let me pursue that with you.
    Chief Self. I understand, ma'am.
    Ms. Jackson Lee. And I thank you.
    Mr. Parmer. Yes, ma'am. I think we will all agree that was 
a very unfortunate incident. I did not personally attend the 
function, which was intended to be a fundraiser, but I think it 
is our overall regret and embarrassment, and this organization 
is well on the record. And we have very proactive measures in 
terms of sensitivities to ethnicity and EEO matters that have 
been reinvigorated as a result of that incident. And I----
    Ms. Jackson Lee [continuing]. More detail.
    Mr. Parmer. Yes, ma'am.
    Ms. Jackson Lee [continuing]. It affects, if you will----
    Mr. Parmer. Yes, ma'am.
    Ms. Jackson Lee [continuing]. I appreciate--a more detailed 
response.
    Mr. Scott. Thank you.
    We are going to have a couple more questions, and I would 
recognize myself.
    First, Mr. Parmer, the GAO has a report on ICE practices 
that identified some problem areas. Could you provide us with 
the list of problem areas that were identified and what you 
have done since October 2007 to address them?
    Mr. Parmer. Yes, sir. I think the crux of the report had to 
do with officers' discretion in the field about detention--
ability to release from detention and humanitarian concerns. 
And as an organization, we have taken on----
    Mr. Scott. If you could provide us with the report in which 
you have got in writing, we would appreciate it.
    Mr. Parmer. Yes, sir. I will----
    Mr. Scott. Does ICE have a policy against torture?
    Mr. Parmer. We do not torture, no, sir.
    Mr. Scott. And to follow up on the gentleman from 
Massachusetts, do you coordinate with other nations to have 
people tortured?
    Mr. Parmer. No, sir. We do not in any form or fashion 
condone torture.
    Mr. Scott. Thank you.
    Mr. Stenger, there have been reports that some of the 
government computers were hacked, possibly by people from 
China. What is the status--can you give us any update in open 
session as to what the status of that is?
    Mr. Stenger. Mr. Chairman, because of, I think, the 
sensitivity of it, it is going to be very difficult to comment 
on it, but I do believe that there are steps being taken to 
secure the systems--not only government systems, but military 
systems and private sector systems--from malicious malware that 
is out there to prevent losses like that could take place.
    Mr. Scott. In the ID theft, one of the problems with 
consumer ID theft is, what usually happens is when someone gets 
their identification compromised and someone runs up charges on 
their credit card, what usually happens is the bank writes it 
off. There, at that point, are no complaining witnesses and the 
thief pretty much gets away. What would it take to set up an 
operation where routine ID theft could be actually investigated 
and prosecuted?
    Mr. Stenger. Mr. Chairman, because of the fact that it 
really cross-cuts many jurisdictions, I think the task force 
model that we have--we are a very strong proponent of both the 
electronic crime and the financial crime task forces--is 
really, ultimately, the answer to this situation; because we 
don't have thresholds for investigations--I know there was some 
discussion about thresholds for prosecution--but for us, as an 
investigative agency, we take everything individually on its 
merit. So if someone brings forth a case to us on identity 
theft, we will take a look at it and try and work it in the 
proper context.
    Mr. Scott. So most of these can be solved, but they are 
labor-intesive?
    Mr. Stenger. That is correct, Mr. Chairman.
    Mr. Scott. My question is, how much would we need to 
appropriate? We appropriated a few million dollars when we 
passed the last bill--that was about 2 years ago. We had in 
there some funding for ID theft investigations. I assumed it 
was woefully insufficient. My question is, what would we need 
to do to have an operation that could routinely track these 
things down?
    Mr. Stenger. I think because of the nature--the evolving 
nature of this type of crime in cyberspace, it would be 
difficult to quantify an exact amount of money, but I do think 
that we must maintain recognition of the evolving nature of 
these crimes as well as legislation I think that is the right 
path to take, especially for identity theft, because it is not 
only a problem here, it is a problem overseas. And that----
    Mr. Scott. You made a request for funding?
    Mr. Stenger. Have we made a request? I would have to go 
back specifically to track that, as far as----
    Mr. Scott. We would be looking for that, because we would 
like to fund sufficient operation to deter people from 
committing identity theft.
    Admiral Justice, you mentioned the legislation that you 
wanted. Could you describe the--exactly what conduct you want 
proscribed in the new legislation?
    Admiral Justice. Yes, sir. We specifically are looking to 
make it illegal to just operate one of these vessels in 
international waters. A stateless vessel in international 
waters, if you are operating it, that is a crime. There is no 
good----
    Mr. Scott [continuing]. Crime in the United States?
    Admiral Justice. It would be a crime punishable in the 
United States, yes, sir. There is no reason to have that out 
there, other than illicit activity.
    Mr. Scott [continuing]. Any criminal activity--without 
proving any criminal activity, just the mere operation in 
international waters----
    Admiral Justice. That is correct. Yes, sir. What happens 
is----
    Mr. Scott. A crime prosecutable in the United States?
    Admiral Justice. That is correct. Yes, sir. What happens, 
sir, is you can see they are going along, and the minute they 
counter-detect us, they throw one switch, the thing floods, and 
it goes to the bottom. And we can't get the cocaine off of it, 
and they are home-free.
    Mr. Scott. If there is legitimate use of these----
    Admiral Justice. If there is a legitimate use, there would 
be a state; there would be a country that owned it, an owner. 
And if they could produce some ownership, it is not a crime. I 
am talking about a stateless vessel, there is no proof of where 
they came from or whose nationality it is. That is the key 
piece here.
    Mr. Scott. Thank you.
    Mr. Gohmert. Thank you, Chairman. If you want to do 
something on that, I would be glad to join in with you. It does 
sound like if it is a stateless vessel that it is, you know, 
basically--speaks for itself--that it is a violation, and that 
is why they are wanting to remain anonymous.
    Let me ask Admiral Justice, under the 1995 change to the 
Cuban Adjustment Act, Cubans who attempt to enter the United 
States over water are given parole status for 1 year and 
allowed to seek U.S. citizenship if they make it to dry land. 
If they don't make it to dry land, they are interdicted by the 
Coast Guard, detained, and sent back to Cuba.
    As a result of that policy, smugglers engage in dangerous 
practices--place migrants in a dangerous situation. I am just 
wondering, have you ever questioned the wisdom of this wet-
feet, dry-feet policy, and have you ever considered whether 
that policy ought to be changed? I am just curious to your 
thoughts on it.
    Admiral Justice. It does create an extraordinary challenge 
to us, and an incentive for lawlessness and for people to take 
great risks as they try to get to our sand--to our beach. And 
that--law, and that constitutes a definite challenge in the 
Florida Straits; it requires us to have extraordinary amounts 
of resources dedicated to the challenge, and it----
    Mr. Gohmert. Well, without leaving our country completely 
unprotected, do you have a policy that would cause less 
challenge? Of course, less challenge would be where you don't 
ever protect us from anybody coming in, but--policy like that--
--
    Admiral Justice. What we are asking, sir--and you supported 
it and we ask you just aim at some more definitive support--the 
Interauthorization Act, the law we would like to see as I 
mentioned to Congressman Coble, has stiffer penalties for the 
people we do catch out there; and we catch people, again, daily 
running high-speed, overloaded boats. We get them to stop, and 
we don't have enough teeth in the law to really make it not 
worth their time to do that. We want to make it not worth their 
time to try to smuggle people at high speeds, you know, into 
our Nation.
    Mr. Gohmert. Chief Self, my office was told that I could 
have access to the remains of the plane that Clint Thrasher was 
flying. Do you know who has possession of those remains?
    Admiral Justice. I believe it is going to be Air and Marine 
under CBP, sir. The plane is presently located at the El Paso 
International Airport.
    Mr. Gohmert. Okay. Thank you.
    Mr. Stenger, who has primary jurisdiction to investigate 
things like Congress' computer systems being hacked into? Is 
that you or FBI--who has primary jurisdiction?
    Mr. Stenger. Depending on what kind of crime it is--we 
share jurisdiction in many of these things. If it is a criminal 
attempt, obviously we share jurisdiction with the FBI; so 
either one of us or both of us could work together depending on 
what the case looked like when it was initially brought 
forward. Certainly if it was terrorism, the Bureau would have 
primary jurisdiction.
    Mr. Gohmert. If it is terrorism; but if it is not for sure 
that it is terrorism, then we don't have a delineation as to 
who takes priority in investigating that?
    Mr. Stenger. Unless it is set by MOU, Congressman, it could 
be co-worked together.
    Mr. Gohmert. Is there an MOU, or is it just MOUSE?
    Mr. Stenger. I am not sure there is an MOU specifically on 
that concerning the Capitol, but I do believe that we do have 
an excellent working relationship with the FBI on this----
    Mr. Gohmert. Well, I understand that, but it sometimes--I 
know how it works: If two entities have the same jurisdiction, 
sometimes there is a battle and things get falling in the 
cracks. And we do have a problem, and I have been advised 
that--our members' financial information, some of it has been 
put online and made available to anybody out there on the 
Internet; and that wasn't even a crime, it was our own people 
getting it out there.
    I am also told that the home address of all of you, all of 
us, all of that information is obtainable on the Internet, and 
I am just wondering if we don't need more protective laws to 
allow people to have greater privacy, because there is so much 
out there on everybody. I was at a briefing back when I was a 
judge where we were shown how people in prison, who may have 
been mad at us for sending them there, could get on the 
Internet, not only find out where exactly we live, floor plans 
for many of our homes, get a map printed out of how to get 
there and where to go in the home to go after whoever you want 
to go--it is amazing what is out there.
    Do you feel like there ought to be more extensive laws 
protecting private information online?
    Mr. Stenger. Congressman, I think that the globalization of 
information is a major problem--it is a major issue--and it is 
instantaneous. It is not like it used to be in just being 
delivered by the mail; it is instantaneous sharing of 
information. Specifically for this location and the Capitol, I 
believe the Capitol police would probably have the primary 
jurisdiction, and depending on their resources and 
availability, they would work together with us or the FBI.
    But specifically--as mentioned by the congressman 
concerning the new legislation, that is an issue. I think 
existing laws need to be looked at, resources need to be looked 
at on a regular basis----
    Mr. Gohmert. That is why we are asking you not just, ``Do 
we need to look at it?'' but, ``What do you recommend?'' That 
is what I am getting to. You all are supposed to be the 
experts.
    Mr. Stenger. Well, I think the recommendation would be, as 
crime evolves we do need to look at enhancing the existing 
laws. First off, the--globalization--international aspect of it 
needs to be addressed because it is continuing----
    Mr. Gohmert. Well, I know it needs to be addressed, and we 
thought we were doing that by inviting you up here. So we are 
trying to do that; we just need recommendations on exactly what 
to do. So I would ask if you would submit information in 
writing to us after the hearing that would give specific 
recommendations as to what we could do to better protect 
ourselves and everybody out there, including you--you know if 
all your private information online--have you ever checked?
    Mr. Stenger. It probably is, and I am, too, concerned; I 
think it has got to be everyone's concern. But we will be happy 
to provide that to you.
    Mr. Gohmert. Okay, thank you.
    Thank you, Chairman, for your indulgence.
    Mr. Scott. Thank you.
    This concludes the hearing. I would ask the witnesses to--
if there are other questions from the panel, they will be 
submitted in writing--would ask the witnesses to respond to 
those as quickly as possible so that they can be made part of 
the record. Without objection, the record will remain open for 
1 additional week for additional comments and anything else 
people want to introduce.
    With that, the hearing is now adjourned. Thank you very 
much.
    [Whereupon, at 11:46 a.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

Prepared Statement of the Honorable John Conyers, Jr., a Representative 
in Congress from the State of Michigan, and Chairman, Committee on the 
                               Judiciary

    In 2002, we brought a number of agencies together because of their 
expertise and capabilities so that we could create our best domestic 
defense against terrorism. Although no system is perfect, I think that 
we've had some success and I think that we're making progress. And, I 
thank Chairman Bobby Scott for holding this hearing an exchange of 
information and feedback such as this hearing is crucial for ensuring 
that we remain on the cutting edge against terrorism because sadly in 
today's world, we cannot afford to let our defenses down.
    In today's hearing, I would like to emphasize that in keeping those 
defenses up, we also have to be sure that we are working just as hard 
to safeguard our civil liberties. After all, we could ensure our safety 
easily enough by clamping down on rights and liberties but that's not 
what America is about. If we were to do that, we would be safe but in 
effect, it would be a victory for the terrorists because they would 
change our way of life. So, we must strike that balance in which we're 
physically safe and safe within our liberties as well.
    Today, we will hear from the Transportation Security Administration 
main law enforcement function, the Federal Air Marshals, the Customs 
and Border Protection (CBP), Immigration and Customs Enforcement (ICE), 
the Secret Service, and the Coast Guard. Each has important functions 
and enormous challenges but mainly I would like to discuss ICE CPB and 
their operations.
    I have three main concerns that I would like to address and the 
first is humanitarian. Reports of poor conditions for detainees 
particularly along the Southwest border raises some disturbing 
allegations. ICE and CBP have adopted a ``zero tolerance'' policy has 
pushed detention facilities past their capacities. Food, medicine, even 
blankets are apparently hard to come by and people are sleeping on 
nothing but concrete slabs. This concerns me because if the allegations 
are true, we are depriving people of basic necessities and it must be 
corrected.
    The second is the delegation of ICE authority through the section 
287(g) of the Illegal Immigration Reform and Immigrant Responsibility 
Act (IIRAIRA). We need to be sure that state and local law enforcement 
officers who enforce ICE responsibilities receive the proper training. 
They must be trained in the laws pertaining to unauthorized aliens, 
what constitutes being an unauthorized alien and we also must ensure 
and that their detention facilities meet the standards to ensure proper 
care.
    The third concern is whether Due Process rights are being properly 
protected for detainees. The zero tolerance approach along the 
Southwest border is not only causing poor conditions in the holding 
facilities but apparently, access to adequate counsel is also in doubt. 
There are so many detainees that one lawyer must handle up to six or 
eight clients per day and there is little or no room to meet with 
clients confidentially. This raises serious concerns about whether 
detainees are receiving adequate counsel and if not, Due Process is not 
properly awarded in these cases, which would be unconstitutional.
    In addressing these issues, I would like to hear from these 
witnesses about how their agencies are addressing the concerns. I 
should think that if ICE and CBP continue to pursue zero tolerance we 
would see requests for more and better detention facilities that would 
include upgraded health care. We should also see continuous improvement 
to their training of state and local officers to whom they delegate 
authority and requirements for those officers to have continuing 
education in order to keep their authority. Finally, I would like to 
see recommendations for increases to the federal public defenders' 
offices so that detainees can be adequately represented in our courts.
    I am looking forward to discussing these issues today because they 
are a great concern to me. Again, I thank Chairman Bobby Scott for 
holding this important hearing and I yield back.

                                <F-dash>

       Prepared Statement of the Honorable Sheila Jackson Lee, a 
    Representative in Congress from the State of Texas, and Member, 
        Subcommittee on Crime, Terrorism, and Homeland Security

    Mr. Chairman, thank you for your leadership in convening today's 
very important hearing on the oversight of the Department of Homeland 
Security. I would also like to thank the ranking member the Honorable 
Louie Gohmert. Welcome to our distinguished panelists.
    The Department of Homeland Security (DHS) was established six years 
ago. The National Strategy for Homeland Security and the Homeland 
Security Act of 2002 served to mobilize and organize our nation to 
secure the homeland from terrorist attacks. As part of the creation of 
DHS, the following law enforcement agencies were either transformed to 
DHS or created via consolidation of two or more agencies: the 
Transportation Security Administration, U.S. Customs and Border 
Protection, U.S. Immigration and Customs Enforcement, the United States 
Secret Service, and the U.S. Coast Guard.
    The primary reason for the establishment of DHS was to provide the 
unifying core for the vast network of organizations and institutions 
involved in the efforts to secure our nation. In order to better do 
this and to provide guidance to the 180,000 DHS men and women who work 
every day on this important task, the Department developed its own 
high-level strategic plan. The vision, mission statements, strategic 
goals and objectives provide the framework guiding the actions that 
make up the daily operations of the Department.
    DHS's vision is simple: to preserve our freedoms, protect America, 
and secure our homeland. Its mission is to lead the unified national 
effort to secure America; prevent and deter terrorist attacks and 
protect against and respond to threats and hazards to the nation; and 
ensure safe and secure borders, welcome lawful immigrants and visitors, 
and promote the free-flow of commerce.
    DHS has seven strategic goals and objectives. These include, 
awareness, prevention, protection, response, recovery, service, and 
organizational excellence.
    DHS has engaged in much good work over the past six years, but more 
needs to be done. The five agencies that comprise DHS, their functions, 
their accomplishments, and their challenges are the subject of this 
hearing.

            I. TRANSPORTATION SECURITY ADMINISTRATION (TSA)

    The TSA's main law enforcement functions are carried out through 
the Federal Air Marshals and the National Explosives Detection Canine 
Team Programs. The Federal Air Marshals are the primary law enforcement 
entity within the TSA. They are deployed on flights around the world 
and in the United States to ensure security of the plane and the 
passengers during flight. The Federal Air Marshals staff several 
positions at different organizations such as the National 
Couterterrorism Center, the National Targeting Center, and on the 
Federal Bureau of Investigation (FBI) Joint Terrorism Task Forces. The 
Federal Marshals also work among other law enforcement and homeland 
security liaison assignments during times of heightened alert or 
special national events.
    In its 2005 oversight hearing, the Subcommittee questioned 
administrators about several issues including undercover appearance, 
aircraft boarding procedures, lodging policies and standards of 
conduct. On March 5, 2008, during a full Committee hearing, DHS 
Secretary Michael Chertoff stated that the biggest air threat posed to 
the U.S. is by private jets entering U.S. airspace. During this 
hearing, we plan to follow-up on these issues and inquire about other 
aspects of air travel security.

         II. UNITED STATES CUSTOMS AND BORDER PROTECTION (CBP)

    CBP is responsible for protecting our nation's borders from 
terrorism, human and drug smuggling, illegal immigration, and 
agricultural pests while simultaneously facilitating the flow of 
legitimate travel and trade. CBP is responsible for guarding 7 thousand 
miles of land border of the United States with Canada and Mexico and 2 
thousand miles of coastal waters surrounding the Florida peninsula and 
off the coast of Southern California. The agency also protects 95,000 
miles of maritime border in partnership with the United States Coast 
Guard. CBP is also responsible for enforcing trade and tariff laws to 
ensure that industry operates in a fair and competitive trade 
environment. This hearing will examine CBP standards for questioning 
individuals at the borders, human trafficking and what CBP does to 
combat this problem, and various problems associated with detention and 
removal.

                III. IMMIGRATION AND CUSTOMS ENFORCEMENT

    Immigration and Customs Enforcement is the largest investigative 
branch of DHS. This agency was created after the tragic events of 9/11, 
by combining the law enforcement arms of the former Immigration and 
Naturalization Service and the former U.S. Customs Service, to more 
effectively enforce immigration and customs laws and to protect the 
United States from terrorist attacks.
    Since its creation, ICE's workload has continuously increased. ICE 
has increased its worksite enforcement arrests from 510 in fiscal year 
2002, to 4,383 in fiscal year 2006. ICE's Office of Detention and 
Removal Operations more than doubled its fugitive arrests from 7,958 in 
fiscal year 2005 to 15,467 in fiscal year 2006. In fiscal year 2006 
alone, ICE removed about 182,000 aliens from the United States through 
its combined enforcement efforts. Nevertheless, at the end of fiscal 
year 2006, there were still an estimated 12 million unauthorized aliens 
in the United States.
    In a report to Representative Lofgren and myself, the Government 
Accountability Office recommended several changes for ICE to improve 
its operations. GAO recognized that given the sheer number of 
unauthorized aliens, ICE would need to prioritize workloads and 
exercise officer discretion. For example, an alien who poses a threat 
via terrorism or other crime must be detained. On the other hand, 
humanitarian situations such as when an alien who poses no immediate 
threat and is a primary care giver, may call for the ICE officer issue 
a notice to appear rather than detention. Questions have been raised as 
to whether ICE's policies and training have been sufficient to impart 
the necessary expertise to the ICE officer to equip them to make the 
proper determination as to whether an alien should be detained or 
issued a notice. In addition to needing increased officer discretion, 
detention space may also factor into whether to detain an alien. The 
Subcommittee will request information about alternatives to detention 
and the acquisition of additional detention space.

                    IV. UNITED STATES SECRET SERVICE

    The United States Secret Service protects the president and the 
vice-president, their families, heads of state, and other designated 
individuals; investigates threats against these protectees; protects 
the White House, vice-president's residence, foreign missions, and 
other buildings within Washington, D.C.; and plans and implements 
security for designated National Special Security Events.
    The Secret Service also investigates violations of laws relating to 
counterfeiting of United States currency and other financial crimes 
including: access device fraud, financial institution fraud, identity 
theft, computer fraud and other computer-based attacks on our nation's 
banking and telecommunications infrastructure.
    The Subcommittee plans to inquire about when the Secret Service 
gets involved in state or local identity theft and the resources the 
Service needs to adequately combat identity theft and other cybercrimes 
in the United States and abroad.

                      V. UNITED STATES COAST GUARD

    The United States Coast Guard's law enforcement mission is maritime 
security. The goal of maritime security is to protect America's 
maritime borders from all intrusions by: (a) halting the flow of 
illegal drugs, aliens, and contraband into the United States through 
maritime routes; (b) preventing illegal fishing; and (c) suppressing 
violations of federal law in the maritime arena. This Subcommittee is 
concerned about the Coast Guard updating its technology and increasing 
personnel to meet its increasingly challenging mission. The 
Subcommittee will explore whether the Coast Guard has sufficient 
resources to carry out its goals.
    I am eager to hear testimony from, and question, all of the 
agencies represented today. I welcome each of our distinguished 
panelists to provide insight into the various agencies that comprise 
DHS. The Department has achieved much over the past six years in 
ensuring that America is a safer place; however, much work needs to be 
done. I am hopeful that DHS will become more effective and diverse and 
that this hearing will help start us along the way. Again, I welcome 
the testimony from our distinguished panelists.
    Thank you. Mr. Chairman, I yield the remainder of my time.

                                <F-dash>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
